OFFICE OF INSPECTOR GENERAL


SEMIANNUAL REPORT

 TO THE CONGRESS

  April 1, 2005 - September 30, 2005

                              Inspector General

                HOTLINE
The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations
of fraud, waste, abuse, mismanagement or misconduct in the programs and operations of the
United States Agency for International Development (USAID), the Inter-American Foundation
(IAF), the African Development Foundation (ADF), and the Millennium Challenge Corporation
(MCC). USAID, IAF, ADF and MCC employees, contractors, and program participants or the
general public may report allegations directly to the OIG. The Inspector General Act of 1978 and
other laws protect persons making hotline complaints. Submit complaints by e-mail, telephone,
or mail to:

Phone 	                1-202-712-1023
                       1-800-230-6539

E-mail 	               ig.hotline@usaid.gov

Mail        	          USAID OIG HOTLINE
                       P.O. Box 657

                       Washington, DC 20044-0657


Individuals who contact the Hotline are not required to identify themselves. However, the OIG
encourages those who report allegations to identify themselves so they can be contacted if additional
questions arise as OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the
Inspector General will not disclose the identity of an individual who provides information unless that
individual consents or unless the Inspector General determines that such disclosure is unavoidable
during the course of an investigation. You may request confidentiality when using the telephone or
mail. E-mail complaints cannot be kept confidential because electronic e-mail systems are not secure.




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Oﬃce of Inspector General
                                               October 28, 2005

 The Honorable Andrew S. Natsios
 Administrator
 U.S. Agency for International Development

 Dear Mr. Natsios:

        I am pleased to forward the Office of the Inspector General’s (OIG) Semiannual Report
 to you and the Congress for the six month period ending September 30, 2005. The report is
 issued in compliance with the Inspector General Act of 1978, as amended.
       The report highlights our work particularly where the U.S. Agency for International
 Development (USAID) is operating in areas of crisis. Chief among those areas are Iraq
 and Afghanistan. We found that while challenging, progress can be and is being made
 and we draw attention to the successes that have been obtained by USAID under difficult
 circumstances.
        I can report very substantial settlements from three major investigations. In the first
 case the OIG was part of a multi-agency Federal investigation into allegations of false claims
 involving undisclosed travel rebates. The result was a government-wide civil settlement of
 $41.9 million--of which $3.36 million is attributable to USAID. The second major case arose
 out of an OIG investigation of an accounting fraud scheme by a U.S. non-profit organization.
 The result was a $3.3 million civil settlement. In the third case, a $31.5 million civil
 settlement was attained in a case that involved insider dealing on an important USAID project
 to promote aspects of a market economy in Russia.
        This report updates our work on two Presidential Initiatives. Our world-wide audit
 of the President’s Emergency Plan for AIDS Relief shows that USAID is contributing
 significantly to the overall plan in various aspects across the globe. USAID’s program of
 Global Development Alliances was also the subject of a world-wide audit at five locations.
 Our overall assessment showed that USAID’s partnerships with the private sector can be
 effective in attaining results, but more can be done to strengthen the program overall.
         We remain focused on USAID’s major management challenges which are described in
 detail in the report. Senior Management’s continued attention and oversight in these areas is
 warranted.
        The OIG will continue responding to the priority programs and operations of the
 Agency with its many mandates, particularly in high risk environments and high risk
 programs. I appreciate your continued support of OIG and the high regard you have shown
 for our work.
                                               Sincerely,



                                               Paula F. Hayes
U.S. Agency for International Development
                                               Acting Deputy Inspector General
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Oﬃce of Inspector General
   for
The African Development Foundation


                                              October 28, 2005



Mr. Edward Brehm, Chairman
Mr. Nathaniel Fields, President
The African Development Foundation
1400 Eye Street, N.W., Tenth Floor
Washington, D.C. 20005-2248

Dear Sirs:

      It is with pleasure that I report to you and the U.S. Congress the accomplishments of
the U.S. Agency for International Development (USAID), Office of Inspector General (OIG)
with regard to the African Development Foundation (ADF) for the period that ended
September 30, 2005.

      The report is issued in compliance with the Inspector General Act of 1978, as amended.
The Consolidated Appropriations Act (P.L. 106-113), dated November 29, 1999, assigned audit
and investigation responsibilities for the ADF to USAID/OIG.

      I appreciate the courtesy and assistance extended to OIG staff during our work with your
organization.

                                              Sincerely,




                                              Paula F. Hayes
                                              Acting Deputy Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Oﬃce of Inspector General
   for
The Inter-American Foundation


                                              October 28, 2005



Mr. Roger W. Wallace, Chairman of the Board
Mr. Larry Palmer, President
The Inter-American Foundation
901 North Stuart Street, 10th Floor
Arlington, VA 22203

Dear Sirs:

      It is with pleasure that I report to you and the U.S. Congress the accomplishments of the
U.S. Agency for International Development (USAID) Office of Inspector General (OIG) with
regard to the Inter-American Foundation (IAF) for the period that ended September 30, 2005.

      The report is issued in compliance with the Inspector General Act of 1978, as amended.
The Consolidated Appropriations Act (P.L. 106-113), dated November 29, 1999, assigned audit
and investigation responsibilities for the IAF to USAID/OIG.

      I appreciate the courtesy and assistance extended to OIG staff during our work with your
organization.

                                              Sincerely,




                                              Paula F. Hayes
                                              Acting Deputy Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
                  Semiannual Report to the Congress


                               Acronyms

ADF           African Development Foundation
APEP          Afghanistan Primary Education Program
CAP           Community Action Program
CEO           Chief Executive Ofﬁcer
CIP           Commodity Import Program
CPA/IG        Coalition Provisional Authority/Inspector General
CTOs          Cognizant Technical Ofﬁcers
DCA           Development Credit Authority
DCAA          Defense Contract Audit Agency
DOS           Department of State
FDA           U.S. Food and Drug Administration
FFMIA         Federal Financial Management Improvement Act of 1996
FSN           Foreign Service National
GAO           Government Accountability Ofﬁce
GDA           Global Development Alliance
GMRA          Government Management and Reform Act
HIV/AIDS      Human Immunodeﬁciency Virus/Acquired Immune Deﬁciency Syndrome
IAF           Inter-American Foundation
IG            Inspector General
IG Act        Inspector General Act of 1978
MCC           Millennium Challenge Corporation
MOU           Memorandum of Understanding
OIG           Ofﬁce of the Inspector General
OMB           Ofﬁce of Management and Budget
PVO           Private Voluntary Organization
Results Act   Government Performance and Results Act of 1993
SAIs          Supreme Audit Institutions
SFO           Sudan Field Ofﬁce
SPLM          Sudan People’s Liberation Movement
USAID         United States Agency for International Development

                                                                   April 1, 2005 — September 30, 2005

                                                                                                                                                                                             i
                                               Semiannual Report to the Congress


                                                     Table of Contents

Reporting Requirements....................................................................................................................................................ii

Executive Summary ............................................................................................................................................................ 1

Overview .............................................................................................................................................................................. 2

USAID

       Major Management Challenges ......................................................................................................................... 4

                  Financial Management............................................................................................................................ 4

                  Information Resources Management ................................................................................................. 4

                  Managing for Results .............................................................................................................................. 5

                  Procurement Management ................................................................................................................... 7

                  Human Capital Management ................................................................................................................ 7

       Responding to Major Crises and Working in Fragile States ....................................................................... 8
                  Iraq ............................................................................................................................................................. 8

                  Afghanistan ............................................................................................................................................... 9

                  West Bank and Gaza .............................................................................................................................. 9

                  Sudan ....................................................................................................................................................... 10

                  Tsunami................................................................................................................................................... 10

                  HIV/AIDS ................................................................................................................................................11

       Expanding Accountability ..................................................................................................................................12

                  Expanding Supreme Audit Institutions’ Capabilities ..................................................................... 12

                  Fraud Awareness Training ................................................................................................................... 12

                  Investigations: Prevention and Fraud Awareness.......................................................................... 14

                  Financial Management Training........................................................................................................... 14

                  Federal-wide Quality Control Review Program ........................................................................... 14

                  Presentations to Federal and Non-Federal Audiences ................................................................ 15

                  Oversight of Audit Work Conducted on the OIG’s Behalf ........................................................ 15

       Introduction to USAID Bureaus and Independent Ofﬁces ...................................................................... 16

                  Bureau for Africa ...................................................................................................................................17

                  Bureau for Asia and the Near East ................................................................................................... 21

                  Bureau for Europe and Eurasia.......................................................................................................... 26

                  Global Development Alliance Secretariat ....................................................................................... 27

                  Bureau for Global Health ................................................................................................................... 28

                  Bureau for Latin America and the Caribbean ................................................................................ 29

                  Bureau for Management...................................................................................................................... 31

African Development Foundation

       OIG Strategy........................................................................................................................................................ 34

       Management Challenges....................................................................................................................................34

       OIG Oversight Activities ..................................................................................................................................35

Inter-American Foundation

       OIG Strategy........................................................................................................................................................ 36

       Management Challenges....................................................................................................................................36

       OIG Oversight Activities ..................................................................................................................................37

Appendices...... ................................................................................................................................................................... 39



                                                                                                                                        April 1, 2005 — September 30, 2005

ii
                               Semiannual Report to the Congress


            Reporting Requirements—USAID

     The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
     reports to the Congress summarizing the activities of the office during the preceding six-month period. The
     required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                                      Reporting Requirement                                      Location

     Significant Problems,Abuses and Deficiencies                                              Pages 4 - 11


     Recommendations for Corrective Actions                                                    Pages 16 - 32


     Summary of Each Significant Report                                                        Pages 16 - 32

                                                                                                Appendix A
     List of Audit Reports Issued
                                                                                               Pages 40 - 58

     Summary of Each Audit Report over Six Months Old for Which No Management                   Appendix B
     Decision Has Been Made                                                                      Page 60

     Significant Prior Recommendations on Which Corrective Action Has Not Been                 Appendix C
     Completed                                                                                 Page 61 - 62

                                                                                               Appendix D
     Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                                Pages 64

                                                                                                Appendix E
     Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                                 Pages 66

                                                                                                Appendix F
     Summary of Instances in Which Information or Assistance was Refused
                                                                                                 Page 68

                                                                                                Appendix F
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                                 Page 68

                                                                                                Appendix F
     Significant Management Decisions with Which the Inspector General Disagrees
                                                                                                 Page 68

     Remediation Plan Information (Required under the Federal Financial Management              Appendix F
     Improvement Act of 1996)                                                                    Page 68

     Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions          Appendix G
     Which Resulted                                                                             Page 69

April 1, 2005 — September 30, 2005

                                                                                                           iii
                          Semiannual Report to the Congress


           Reporting Requirements—ADF

The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
reports to the Congress summarizing the activities of the office during the preceding six-month period. The
required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                               Reporting Requirement                                         Location

Significant Problems,Abuses and Deficiencies                                              Pages 34 - 35


Recommendations for Corrective Actions                                                    Pages 34 - 35


Summary of Each Significant Report                                                           Page 35

                                                                                           Appendix A
List of Audit Reports Issued
                                                                                            Pages 59

Summary of Each Audit Report over Six Months Old for Which No Management                   Nothing to
Decision Has Been Made                                                                      Report

Significant Prior Recommendations on Which Corrective Action Has Not Been                  Appendix C
Completed                                                                                   Page 63

                                                                                           Appendix D
Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                            Page 65

                                                                                           Appendix E
Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                            Page 67

                                                                                           Nothing to
Summary of Instances in Which Information or Assistance was Refused
                                                                                            Report

                                                                                           Nothing to
Decisions and Reasons for Significant Revised Management Decisions
                                                                                            Report

                                                                                           Nothing to
Significant Management Decisions with Which the Inspector General Disagrees
                                                                                            Report

Remediation Plan Information (Required under the Federal Financial Management               Nothing to
Improvement Act of 1996)                                                                     Report

Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions           Nothing to
Which Resulted                                                                              Report

                                                                            April 1, 2005 — September 30, 2005

iv
                               Semiannual Report to the Congress


                 Reporting Requirements—IAF

     The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
     reports to the Congress summarizing the activities of the office during the preceding six-month period. The
     required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                                      Reporting Requirement                                      Location

     Significant Problems,Abuses and Deficiencies                                              Pages 36 - 37


     Recommendations for Corrective Actions                                                    Pages 36 - 37

                                                                                                Nothing to
     Summary of Each Significant Report
                                                                                                 Report

                                                                                                Appendix A
     List of Audit Reports Issued
                                                                                                 Pages 59

     Summary of Each Audit Report over Six Months Old for Which No Management                   Nothing to
     Decision Has Been Made                                                                      Report

     Significant Prior Recommendations on Which Corrective Action Has Not Been                  Nothing to
     Completed                                                                                   Report

                                                                                                Nothing to
     Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                                 Report

                                                                                                Nothing to
     Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                                 Report

                                                                                                Nothing to
     Summary of Instances in Which Information or Assistance was Refused
                                                                                                 Report

                                                                                                Nothing to
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                                 Report

                                                                                                Nothing to
     Significant Management Decisions with Which the Inspector General Disagrees
                                                                                                 Report

     Remediation Plan Information (Required under the Federal Financial Management              Nothing to
     Improvement Act of 1996)                                                                    Report

     Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions           Nothing to
     Which Resulted                                                                              Report

April 1, 2005 — September 30, 2005

                                                                                                             1
                           Semiannual Report to the Congress


                            Executive Summary

During this reporting period, the Ofﬁce of the           that peace accords in Sudan will present new
Inspector General issued 234 audit reports with          opportunities for relief and development, the OIG
monetary recommendations valued at $31.7 million         conducted a survey to identify subjects for audit.
and completed 61 investigations with savings             Transparency and accountability for USAID’s funds
and recoveries of $42,279,796. OIG and USAID             will continue to be a challenge in that environment
continue to reach “management decision” on all           over the long run, but improvements will be
audit recommendations within 6 months of report          facilitated by new peace agreements.
issuance, a trend that began March 31, 2001.
                                                         The Congress has provided up to $1 million to the
This report presents the ﬁndings of the most             USAID/OIG for directed audit and investigation
signiﬁcant audits and investigations during this         coverage of USAID’s tsunami program. During
reporting period. An increasing amount of our            this reporting period, OIG’s risk assessments in
work responds to USAID’s work in areas of                Indonesia and Sri Lanka indicated that the USAID
conﬂict and crisis. USAID has deﬁned the special         programs of tsunami recovery and reconstruction
challenges of such situations in a recent publication,   could be hampered by the tenuous security and the
Fragile States Strategy. Tremendous instability is       degree of cooperation from host governments. The
common in these locations, instability that hinders      OIG is assisting the USAID Mission by providing
USAID, project implementers, recipients, and the         brieﬁngs focusing on fraud-related concerns and
OIG in the performance of their jobs. We place           plans for fraud awareness seminars.
a high priority on that work as part of the nation’s
important foreign affairs efforts. Our reports           As part of its worldwide assessment of USAID’s
strive to reﬂect both the high risk and extremely        implementation of the President’s Emergency Plan
difﬁcult accountability environments in which            for AIDS Relief (Emergency Plan), the OIG issued
USAID is operating. And we recognize that such           ﬁve audit reports during this reporting period. The
environments make it difﬁcult to achieve the desired     OIG focused on countries where USAID has a major
program results.                                         role in prevention and care. The overall ﬁndings
                                                         were that the programs in Uganda, Kenya, Zambia,
During this reporting period, the ﬁnal resolution        Rwanda, and Haiti are contributing signiﬁcantly to
of three major investigations resulted in substantial    the Emergency Plan.
civil settlements. They involved: (1) a multi-agency
federal taskforce investigation into allegations of      Supreme Audit Institutions continue to be
false claims involving undisclosed travel rebates,       productive partners for the OIG; in fact, during
resulted in a government-wide civil settlement of        this reporting period, nine SAI audit reports on
$41.9 million--of which $3.36 million is attributable    USAID assistance to foreign governments were
to USAID; (2) an OIG investigation of an accounting      completed with OIG oversight. These reports
fraud scheme by a U.S. non-proﬁt organization            identiﬁed over $1 million in questioned costs, 21
resulted in a $3.3 million civil settlement agreement;   internal control weaknesses, and 20 instances of
and (3) a $31.5 million civil settlement attained on     material noncompliance.
a longstanding case that involved insider dealing on
an important USAID project to promote aspects of         The Major Management challenges facing USAID, as
a free market economy in Russia.                         identiﬁed by the OIG, are updated in this report.
                                                         Progress continues to be made against this agenda.
Our work in Iraq and Afghanistan is intended to          There are ﬁve areas of focus: managing for results,
help USAID respond to the demands of those               procurement, human capital, ﬁnancial management,
operations. We found that USAID was making               and information technology.
important progress in those two countries.
                                                         This report also presents the OIG’s audit strategy
Looking toward the future and the possibility            and the major challenges facing ADF and IAF.

                                                                             April 1, 2005 — September 30, 2005

2
                             Semiannual Report to the Congress


    Overview
                                           Organization

    The Ofﬁce of the Inspector General (OIG) is         The OIG is organized into four operational
    responsible for providing audit and investigative   units: Audit, Investigations, Millennium Challenge
    services to the U.S. Agency for International       Corporation, and Management. There are seven
    Development (USAID), the African Development        overseas ﬁeld ofﬁces, each headed by a Regional
    Foundation (ADF), the Inter-American Foundation     Inspector General: Cairo, Egypt; Baghdad, Iraq; Dakar,
    (IAF), and the Millennium Challenge Corporation     Senegal; Frankfurt, Germany; Manila, Philippines;
    (MCC).                                              Pretoria, South Africa; and San Salvador, El Salvador.
                                                        (During this reporting period, OIG’s Budapest,
                                                        Hungary ﬁeld ofﬁce was relocated to Frankfurt,
    Mission
                                            Germany.) These regional ofﬁces maintain close
    Established under the Inspector General Act of      working relationships with the USAID missions
    1978 (IG Act), as amended, the OIG is tasked        in their regions, and their presence in the ﬁeld
    with (1) promoting economy, efﬁciency, and          enables auditors and investigators to carry out
    effectiveness in the administration of programs     their responsibilities efﬁciently.
    and (2) preventing and detecting fraud and abuse
    in worldwide program operations. The IG Act
    also requires all Inspectors General to keep
    management and the Congress fully and currently
    informed about problems and deﬁciencies relating
    to the administration of programs and operations,
    as well as about actions taken to correct those
    deﬁciencies and problems.




April 1, 2005 — September 30, 2005

                                                                                                                        3
                             Semiannual Report to the Congress


           USAID Ofﬁce of the Inspector General

                                               Inspector General
                                                                                           Counsel to
                                                                                          the Inspector
             Special Assistant                 Deputy Inspector General                      General




  Assistant Inspector             Assistant Inspector            Assistant Inspector          Assistant Inspector
General -- Investigations          General -- MCC              General -- Management           General -- Audit




     Deputy AIG/I           Deputy AIG/MCC              Deputy AIG/M          Deputy AIG/A            Deputy AIG/A




     Headquarters                                         Human
      Liaison &                                           Capital                                 Headquarters
     Coordination              Financial                  Division            Financial            Liaison &
       Division              Audits Division                                Audits Division       Coordination
                                                                                                    Division
                                                          Financial
       AFR/ANE                                                               Information
                                                         Resources
        Division              Performance                                   Technology &          Performance
                                                          Division
                             Audits Division                                Special Audits       Audits Division
                                                                               Division

       LAC/E&E                                           Information
        Division                                         Technology
                                                           Division




                                          Regional Inspector General Offices




                                                                                                              San
   Baghdad           Cairo            Dakar             Frankfurt        Manila          Pretoria
                                                                                                           Salvador
     Iraq            Egypt           Senegal            Germany        Philippines     South Africa
                                                                                                          El Salvador


                                                                                     April 1, 2005 — September 30, 2005
4
                              Semiannual Report to the Congress

                                                         2005. With respect to the one material weakness
    Major Management                                     reported in ﬁscal year 2004, the OIG will report
    Challenges                                           on USAID’s progress in establishing a process to
                                                         compile, monitor, and review quarterly accruals
    USAID implements American’s foreign economic         affecting accounts payable and expenditures. The
    and humanitarian assistance programs in              OIG will also report on progress made in addressing
    accordance with foreign policy guidance provided     the following reportable conditions cited in ﬁscal
    by the Secretary of State. USAID manages a           year 2004:
    budget of approximately $13.1 billion and advances
    U.S. foreign policy objectives by supporting:         • 	Mapping strategic objectives to USAID perfor-
                                                             mance goals.
        	
     • Economic  growth, trade, and agricultural
       development.                                         	
                                                          • Reconciling its fund balance with the U.S.
                                                            Treasury.
     • 	Improvements in global health.
                                                          • 	Recognizing and reporting accounts receivable.
     • 	Conﬂict prevention, democracy, and develop-
        mental relief activities.                         • 	Performing reconciliations of intragovernmen-
                                                             tal transactions.
    In pursuit of its mission, USAID faces a number
    of Major Management Challenges—which parallel            	
                                                          • Deobligating unneeded unliquidated obliga-
    the President’s Management Agenda. This section         tions.
    updates the continuing efforts by USAID to
    address those challenges and OIG efforts to assist    • 	Preparing a complete Management Discussion
    in overcoming them.                                      and Analysis.

    These Major Management Challenges are:               Information Resources
     • Financial Management                              Management
     • Information Resources Management                  Improving Information Resources
     • Managing for Results                              Management Processes
     • Procurement Management                            The Clinger-Cohen Act of 1996 requires the heads
                                                         of executive agencies to, among other things,
     • Human Capital Management                          implement (1) procedures to select, manage, and
                                                         evaluate investments and (2) a means for senior
                                                         managers to monitor progress in terms of costs,
    Financial Management
                                system capabilities, timeliness, and quality.
    In November 2004, the OIG issued an unqualiﬁed       Beginning in 1997, USAID reported a material
    opinion on USAID’s ﬁscal year 2004 ﬁnancial          weakness in its ability to meet Clinger-Cohen Act
    statements. In the previous semiannual report,       requirements. Speciﬁcally, USAID did not have the
    the OIG identiﬁed this opinion as an important       following:
    milestone representing signiﬁcant progress by
    USAID. The ﬁscal year 2005 audit is currently
    underway, and the OIG will provide its opinion
    on USAID’s ﬁnancial statements by November 15,

April 1, 2005 — September 30, 2005

                                                                                                                                          5
                                         Semiannual Report to the Congress

    • A strategic-oriented1 IT capital investment plan-                             Improving Information Security
      ning, budgeting, and acquisition process.
                                                                                    The Federal Information Security Management
    • A tactical-oriented2 IT investment program                                    Act of 2002 (FISMA) requires agencies to
      management control capacity.                                                  develop, document, and implement an agency-
                                                                                    wide information security program to protect its
In November 2004, USAID reported that closure                                       information and information systems, including
of the material weakness was contingent upon the                                    those provided or managed by another agency,
full implementation of tactically-oriented program                                  contractor, or other source. USAID met FISMA’s
management and oversight practices. Further,                                        computer security requirements by:
USAID would demonstrate that such practices
were effective by completing the implementation of                                   • 	Providing computer awareness training.
a project, which was expected by the end of ﬁscal
year 2005.                                                                           • 	Conducting regular network scans to identify
                                                                                        vulnerabilities.
USAID has taken some actions to correct this
weakness. Speciﬁcally, it has:                                                       • 	Operating network intrusion sensors to detect
                                                                                        unauthorized attempts to access USAID
       	
    • Staffed most of its Program Management                                            networks.
      Ofﬁce.
                                                                                     • 	Detecting and responding to security incidents.
    • 	Hired Directors for its Ofﬁce of Information
       Resources    Management      and     Program                                 However, USAID could do more work to strengthen
       Management Ofﬁce.                                                            its compliance with FISMA. Speciﬁcally, it could
                                                                                    strengthen its contingency planning and certiﬁcation
    • 	Published (among other things) risk manage-                                  and accreditation process and its controls over
       ment and quality control plans for projects.                                 access to the computer network and its ﬁnancial
                                                                                    management system. In addition, there are areas
       	
    • Issued  revised policies and procedures for                                   where USAID could strengthen controls over the
      USAID’s capital planning and investment control                               physical security of its computer network.
      process.
                                                                                    USAID is also not in compliance with provisions
The OIG is currently conducting an audit that will                                  of the security classiﬁcation of system managers
address this weakness and will report the results in                                at overseas critical threat locations. Contrary to
the March 2006 Semiannual Report to the Congress.                                   Foreign Affairs Manual requirements, these positions
Based on current discussions, USAID will no longer                                  are staffed by foreign service nationals instead of
report this as a material weakness, but plans to                                    U.S. citizens with security clearances.
report it as a reportable condition in its FY 2005
Performance and Accountability Report.                                              The OIG will continue to monitor USAID’s progress
                                                                                    in addressing the above issues.

                                                                                    Managing for Results

                                                                                    USAID has programs in about 100 countries
1
                                                                                    promoting a wide range of objectives related to
    Strategic orientation breaks down the organization’s goals into doable
elements.
                                                                                    economic growth, agriculture, and trade; global
2
  Tactical orientation deals with the details and methods to accomplish strategic   health; and democracy, conﬂict prevention and
elements.                                                                           humanitarian assistance. Federal laws, such as the
                                                                                                        April 1, 2005 — September 30, 2005

6
                                            Semiannual Report to the Congress

    Government Performance and Results Act of 1993,                                   year results against established goals and targets
    require that Federal agencies develop performance                                 is a signiﬁcant step in the right direction. Second,
    measurement and reporting systems that establish                                  the Management’s Discussion and Analysis for ﬁscal
    strategic and annual plans, set annual targets,                                   year 2004 used USAID’s New Strategic Planning
    track progress, and measure results. In addition,                                 Framework and Goal Structure contained in the Joint
    government-wide initiatives, such as the President’s                              USAID/State Strategic Plan. This new framework is
    Management Agenda, require that agencies link their                               designed to present a more coherent, concise and
    performance results to budget and human capital                                   logical reﬂection of how the Department of State
    requirements.                                                                     and USAID organize their work towards results
                                                                                      and outcomes.
    A signiﬁcant element of USAID’s performance
    management system is the Annual Report prepared                                   We will review progress made in the Management’s
    by each of its operating units. These reports                                     Discussion and Analysis for ﬁscal year 2005 when
    provide information on the results attained with                                  this information is made available to us by USAID
    USAID resources, request additional resources, and                                management in mid-October 2005.
    explain the use of, and results expected from, these
    additional resources. Information in these unit-                                  Each quarter, the Ofﬁce of Management and Budget
    level Annual Reports is consolidated to present a                                 (OMB) scores each agency’s status and progress
    USAID-wide picture of achievements in USAID’s                                     towards implementing the President’s Management
    annual Performance and Accountability Report.                                     Agenda. A “green” rating indicates success and a
                                                                                      “yellow” rating signiﬁes mixed results, while a “red”
    The OIG continues to monitor USAID’s progress                                     rating is unsatisfactory. For the quarter ending
    in improving its performance management system.                                   June 30, 2005, OMB rated USAID’s current status
    While USAID has made notable improvements,                                        in the budget/performance integration initiative as
    more remains to be done. For example, during                                      “yellow” and USAID’s progress towards meeting
    the prior reporting period, the OIG reported3 that                                its goals in this area as “green.” Although USAID
    certain information included in the Management’s                                  is making satisfactory progress toward meeting its
    Discussion and Analysis section of USAID’s ﬁscal                                  budget/performance integration goals, more work
    year 2004 consolidated ﬁnancial statements did                                    remains to be done.
    not contain a clear picture of USAID’s planned
    and actual performance for that year. Moreover,                                   During this reporting period, the OIG issued a
    the primary performance information included was                                  report that summarized the results of its work
    based on results achieved in ﬁscal year 2003 rather                               regarding USAID’s Global Development Alliances
    than ﬁscal year 2004.                                                             (GDAs). Audit work was conducted in Zambia,
                                                                                      Peru, Nigeria, South Africa, and India. The OIG
    Nevertheless, USAID has made notable                                              determined that USAID missions did not always
    improvements to the Management Discussion and                                     report their GDAs accurately and completely.
    Analysis section. First, the Management’s Discussion                              That is, the missions did not always include all
    and Analysis for ﬁscal year 2004 reported more                                    the GDA information requested by the Annual
    current-year results than the prior year’s. USAID’s                               Report guidance. In addition, missions did not
    present ability to compare the estimated current-                                 always maintain documentation to support that
                                                                                      their GDAs met the criteria to be reported
                                                                                      as GDAs or to support partner contributions
                                                                                      reported to USAID/Washington. Furthermore,
    3
                                                                                      although over one-third of the GDAs audited had
       “Independent Auditor’s Report on USAID’s Consolidated Financial Statements,
    Internal Controls, and Compliance for Fiscal Years 2004 and 2003,” November 15,
                                                                                      either achieved their intended results or were
    2004 (Audit Report No. 0-000-05-001-C).                                           on track to do so, nearly one-half had either not

April 1, 2005 — September 30, 2005

                                                                                                                7
                           Semiannual Report to the Congress

developed performance indicators or targets, or         plans to identify the Ofﬁce of Acquisition and
had not achieved their intended results. The OIG        Assistance’s status in achieving these standards
made four recommendations to correct these              and the necessary steps required to continue
deﬁciencies (see page 27).                              improvement. Presently, the OIG is conducting an
                                                        audit of selected scopes of work for task orders
Procurement Management
                                 issued under indeﬁnite quantity contracts by the
                                                        Ofﬁce of Acquisition and Assistance.
The OIG recognizes that promoting operational
efﬁciency and effectiveness is of critical importance   Human Capital
to ensure that intended results are achieved.
Because of the innate complexities associated           Management
with acquisition and assistance—numerous laws,
                                                        The President’s Management Agenda identiﬁes
regulations, policies, procedures, deﬁnitions,
                                                        the strategic management of human capital as
etc.—USAID faces challenges in its efforts to
                                                        one of ﬁve government-wide areas that need
acquire supplies and services.          USAID uses
                                                        improvement. A decade of downsizing, insufﬁcient
several different methods for acquiring supplies
                                                        funding, staff reductions and lack of hiring, and
and services, including contracts, grants, and
                                                        reductions in training created a serious human
cooperative agreements. Consequently, much of
                                                        capital gap at USAID. In response to the President’s
USAID’s development results are achieved through
                                                        Management Agenda’s initiative on human capital
intermediaries such as contractors and grant
                                                        and to address its own human capital challenges,
recipients and through cooperative agreements.
                                                        USAID has undertaken a major effort to improve
In the scorecard published as of June 30, 2005,         and restructure its human capital management.
the Ofﬁce of Management and Budget (OMB)                For example, in August 2004, USAID issued its ﬁrst
indicated that USAID was unlikely to realize            comprehensive Human Capital Strategic Plan, which
objectives for competitive sourcing without             covered ﬁscal years 2004 to 2008. As of June 30,
signiﬁcant management intervention. Although            2005, the Ofﬁce of Management and Budget gave
OMB reported that USAID’s implementation of             USAID a “yellow” rating for its overall status in the
competitive sourcing is proceeding according to         area of human capital management, an upgrade from
agreed-upon plans, improvements will need to            an unsatisfactory rating of “red.” USAID needs
continue since the scorecard also indicated no          to continue efforts to implement its workforce
change in USAID’s unsatisfactory rating since the       planning to close skill gaps through recruitment,
last report in March 2005.                              retention, training, succession planning, and other
                                                        strategies.
The OIG has developed multi-year strategies to
promote increased efﬁciency and effectiveness in
USAID’s procurement processes. As part of its
strategic plan, the OIG has adopted a strategic
objective of contributing to the improvement of
USAID’s processes for awarding and administering
its contractual instruments.

To ensure that USAID maximizes its beneﬁts from
cost-effective acquisition and assistance processes,
the OIG deﬁned “standards for success” for critical
processes within the framework of a multi-year
audit plan. The OIG developed its multi-year audit

                                                                             April 1, 2005 — September 30, 2005

8
                               Semiannual Report to the Congress

    Responding to Major                                      Iraq

    Crises and Working in                                    USAID/Iraq constitutes the largest U.S. government
                                                             reconstruction effort since the Marshall Plan, with
    Fragile States                                           more than $5 billion in program resources. The OIG
                                                             has seven auditors and one investigator residing
    Many USAID programs have required rapid
                                                             in Baghdad to conduct performance audits and
    expansion and implementation to address major
                                                             investigations of reconstruction and relief activities.
    crises and may operate in nations where economic
                                                             USAID/Iraq carries out programs in four strategic
    and/or political instability increases vulnerability.
                                                             areas: (1) restoring essential infrastructure, (2)
    USAID recently published its Fragile States
                                                             supporting health and education, (3) expanding
    Strategy, which provided its strategic approach to
                                                             economic opportunity, and (4) improving efﬁciency
    fragile states. Fragile states have posed a growing
                                                             and accountability in government. During this
    problem since the end of the Cold War and are
                                                             period, the OIG completed performance audits in
    now recognized as a source of our nation’s most
                                                             the strategic area related to infrastructure.
    pressing security threats.

    USAID uses the term fragile states to refer to a
    broad range of failing, failed, and recovering states.
    In its Fragile States Strategy, USAID distinguished
    between fragile states that are vulnerable from
    those that are already in crisis. USAID uses the
    term vulnerable to refer to those states that do
    not adequately ensure security or basic services to
    signiﬁcant portions of their populations and where
    the legitimacy of the government is in question.
    USAID uses crisis to refer to states whose
    central government does not exert control over
    its territory or does not provide vital services,
    where the legitimacy of the government is weak,
    and where violent conﬂict is a reality or a great         Photograph showing one of two turbines that a USAID contractor
    risk. USAID has recognized that in working with           refurbished in an Iraq power plant.
    fragile states, development efforts will not succeed
    immediately. Therefore, USAID must be prepared
    to stay for the long haul.

    Accordingly, USAID and the OIG are dedicating
    signiﬁcant resources to areas that have been
                                                             The infrastructure audits included the audit of
    identiﬁed as fragile states (Afghanistan and Sudan),
                                                             USAID/Iraq’s restoration of the electrical power
    to areas of conﬂict and vulnerability (Iraq and West
                                                             supply and of its water and sanitation rehabilitation
    Bank and Gaza), and to major crises such as the
                                                             activities. The OIG determined that seven of the
    tsunami (Indonesia and Sri Lanka) and the HIV/AIDS
                                                             22 electrical power sector projects reviewed either
    pandemic in Sub-Saharan Africa.
                                                             had not or were not achieving their intended
                                                             outputs and that much more needed to be done
                                                             regarding institutional capacity-building (see page
                                                             21). The OIG also found that four of the 34 water
                                                             and sanitation rehabilitation projects reviewed were

April 1, 2005 — September 30, 2005

                                                                                                               9
                           Semiannual Report to the Congress

not achieving their intended outputs. Many of the        in assistance for Afghanistan. In May 2005, USAID
reasons for the limited success of both projects         received an additional $1.3 billion for Afghanistan
were due to conditions beyond USAID/Iraq’s               from the Emergency Supplemental Appropriations
control (see page 21).                                   Act for Defense, the Global War on Terror, and
                                                         Tsunami Relief, 2005.
The OIG also arranges for the Defense Contract
Audit Agency to conduct concurrent ﬁnancial              During this reporting period, the OIG conducted
audits of USAID contractors and grantees                 a performance audit of USAID/Afghanistan’s
implementing programs in Iraq. During this               estimated $87.9 million Afghanistan Primary
reporting period, the OIG issued 12 ﬁnancial             Education Program (APEP). The audit found that
audit reports covering $712.6 million in incurred        seven of ten APEP activities achieved their planned
costs. These audits questioned approximately             outputs, while the other three APEP activities had
$14.2 million in costs associated with salaries and      not (see page 22).
wages, foreign allowances, subcontractor costs,
security, overhead, facility capital costs of money,     In addition to the performance audit, three
miscellaneous expenses, and indirect costs.              concurrent ﬁnancial audits were conducted of a
                                                         USAID contractor implementing a $665 million
During the current reporting period, the OIG             program in Afghanistan—the largest USAID
completed four investigations.                           program in the country. These audits reported
                                                         ten material internal control weaknesses, ﬁve
Afghanistan
                                             reportable internal control conditions, and about
                                                         $1.1 million in questioned costs.
In its Fragile States Strategy, USAID has identiﬁed
Afghanistan as a fragile state in crisis. The            During the current reporting period, the OIG
central government has limited control over              completed investigations on three existing cases
the country, and the Taliban continue to mount           and began action on a fourth.
attacks. Moreover, many of the country’s social
and economic indicators continue to be the               West Bank and Gaza

worst or close to the worst in the world. The
three investigations closed during the period            USAID has identiﬁed the West Bank and Gaza as
all concerned program integrity issues. One              a fragile state, and it is within this context that
investigation resulted in a recovery of over             accountability over USAID assistance presents a
$46,000 while the other two did not lead to              major challenge. To respond to USAID’s concerns as
signiﬁcant results.                                      well as those of the Congress about accountability
                                                         over USAID funds, the USAID OIG has provided
As is typical of fragile states in crisis, security is   an expanded program of oversight activities in
a major concern in Afghanistan. Because of the           collaboration with USAID/West Bank and Gaza, as
ongoing conﬂict with the Taliban, security in            follows.
the country is tenuous, and USAID’s efforts to
implement and monitor projects there are often               	
                                                          • The   OIG contracted with an independent
impeded.                                                    public accounting ﬁrm to conduct concurrent
                                                            audits of three cash-transfer programs totaling
Nonetheless, USAID continues to implement a                 $90 million to the Palestinian Authority as the
sizable program to advance the country’s recovery           funds are disbursed. To date, these audits have
to a stage where transformational development               helped to ensure that the Palestinian Authority
progress is possible. For example, USAID’s ﬁscal            has used the funds to (1) repay $29 million in
year 2006 budget request included $623 million              past-due utility bills and (2) ﬁnance about $7

                                                                             April 1, 2005 — September 30, 2005

10
                             Semiannual Report to the Congress

       million of the total $61 million provided for
       reconstruction and rehabilitation projects
       throughout municipalities within the West
       Bank and Gaza. During this reporting period,
       the OIG issued four audit reports covering
       concurrent audits under the ﬁrst and second
       cash transfers.

       	 he OIG has contracted with independent
     • T
       public accounting ﬁrms to conduct audits and
       other procedures on contractors, grantees,
       sub-contractors, and sub-grantees. Among
       other things, these audits help to ensure the        Photograph of people in southern Sudan following the signing of
       validity of costs claimed and compliance with        a peace agreement.
       Executive Order 13224 on the blocking of
       assistance to terrorist organizations. During       health, economic recovery, and support to the
       this reporting period, the OIG issued 14            peace process. These activities emphasize capacity-
       ﬁnal reports on these activities, reports that      building at the local level and are linked to USAID’s
       identiﬁed questioned costs of approximately         Sudan Interim Strategic Plan for FY 2004-2006.
       $243,000 out of the $56.9 million audited.          To facilitate the implementation of assistance to
                                                           southern Sudan, USAID established the Sudan
 None of the OIG’s oversight activities during this        Field Ofﬁce (USAID/SFO) in November 2003. In
 reporting period identiﬁed any instances where            USAID’s Fragile States Strategy, Sudan is used as an
 terrorist organizations received USAID funds. The         example of a crisis state that is poised to transition
 OIG will continue its emphasis on proactive efforts       towards post-conﬂict recovery.
 in the West Bank and Gaza.
                                                           During this reporting period, the OIG conducted
 Sudan
                                                    a survey of USAID/SFO (see page 19) in order
                                                           to identify areas in which USAID/SFO could
 After more than 20 years of civil war, a                  improve its management of and accountability for
 comprehensive peace agreement between the                 USAID funds, as well as to provide information for
 Government of Sudan and the southern-based                planning future audits. The survey team visited
 Sudan People’s Liberation Movement (SPLM) was             four sites in southern Sudan to review a sample
 signed in January 2005. The civil war adversely           of activities managed by USAID/SFO. The team
 affected Sudan, Africa’s largest country, with the loss   reviewed stafﬁng and administrative issues, USAID
 of two million lives and the internal displacement        branding, program monitoring, technical skills and
 of over four million Sudanese. Additionally, some         development, audit coverage, transportation, and
 420,000 refugees who ﬂed Sudan during the conﬂict         transparency and accountability.
 now live in formal refugee camps in neighboring
 countries.                                                Tsunami

 USAID-funded programs for ﬁscal year 2005                 On December 26, 2004, a magnitude 9.0
 total $210 million, nearly half of which is for           earthquake off the west coast of Northern
 humanitarian assistance, principally in the Darfur        Sumatra, Indonesia, spawned a massive tsunami
 region. The remaining $106 million was designated         that struck several countries throughout South
 for development activities, principally in southern       and Southeast Asia, and parts of Africa.
 Sudan, which address governance, education,

April 1, 2005 — September 30, 2005

                                                                                                                                    11
                          Semiannual Report to the Congress

On May 11, 2005, President Bush signed the            AIDS Relief (Emergency Plan) in January 2003.
“Emergency Supplemental Appropriations Act for        The United States is focusing signiﬁcant new
Defense, the Global War on Terror, and Tsunami        resources in 15 of the most afﬂicted countries
Relief, 2005.” This Act provided $907 million for     in the world. In these nations, the Emergency
tsunami recovery and reconstruction assistance.       Plan aims to support treatment for 2 million
Under the Act, USAID will receive $656 million        people living with HIV/AIDS, prevent 7 million
to provide direct assistance to tsunami-affected      new HIV infections, and support care for 10
countries. Most of USAID’s funding will go to         million people infected and affected by HIV/
Indonesia and Sri Lanka. The Act also provided        AIDS, including orphans and vulnerable children.
up to $1 million for the OIG to review USAID’s        These 15 focus countries 4 contain approximately
tsunami assistance.                                   half of the world’s 39 million HIV-positive people
                                                      and have almost 8 million children orphaned or
USAID has identiﬁed Indonesia as a fragile state,     made vulnerable by HIV/AIDS. Along with the
and open conﬂict continues in areas in Sri Lanka.     Departments of State, and Health and Human
During this reporting period, the OIG conducted       Services, USAID is one of the key agencies
risk assessments of USAID/Indonesia and USAID/        implementing the Emergency Plan.
Sri Lanka—the two missions implementing the
majority of USAID’s tsunami-assistance activities.    USAID funding for HIV/AIDS programs had been
The purpose of the risk assessments was to            increasing steadily—from $139 million in ﬁscal
prioritize the OIG’s workload and determine what      year 1999 to more than $815 million in ﬁscal year
type of audit coverage was appropriate.               2005. USAID has requested $330 million in ﬁscal
                                                      year 2006 for 60 non-focus countries to provide
The risk assessments also noted that both missions    prevention, care, and HIV/AIDS treatment efforts,
face two potential constraints that could adversely   and for the support of children affected by AIDS.
affect their respective tsunami recovery and          Also, USAID requested an additional $100 million
reconstruction programs: (1) tenuous security         for the Global Fund. 5 Funding for the 15 focus
and (2) the degree of cooperation they will receive   countries is being requested in the Department of
from their respective host governments.               State’s Global HIV/AIDS Initiative account. With
                                                      the funding increases, there is much interest in
The OIG provides investigative coverage for the       monitoring the impact of USAID assistance on the
tsunami relief effort. During the current reporting   HIV/AIDS epidemic.
period, the OIG held meetings with several Mission
Directors assigned to tsunami-affected countries.     The Emergency Plan is one of USAID’s highest
During these meetings, the OIG briefed the            priorities. In 2005, the OIG launched a worldwide
Mission Directors on fraud-related concerns and       audit to determine how USAID is participating in
plans for speciﬁc tsunami investigative efforts and   the Emergency Plan and how it is progressing with
fraud awareness seminars.                             its Emergency Plan activities. The OIG issued a
                                                      summary report and six audit reports to USAID
HIV/AIDS
                                             missions, ﬁve of them during this reporting period
                                                      (see pages 17, 18, and 19).6
The HIV/AIDS pandemic is more than a health
emergency; it is a social and economic crisis that    4
                                                        Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria,
is threatening to erase decades of development        Rwanda, South Africa, Tanzania, Uganda, and Zambia in Africa; Guyana and
                                                      Haiti in the Caribbean; and Vietnam in Asia.
progress.     Recognizing that the HIV/AIDS           5
                                                        The Global Fund is a public-private partnership that raises money to ﬁght AIDS,
pandemic is an unprecedented crisis requiring         tuberculosis, and malaria.
an unprecedented response, President Bush             6
                                                         The report issued during the previous semiannual reporting period was the
                                                      “Audit of USAID/Ethiopia’s Implementation of the President’s Emergency Plan for
announced the President’s Emergency Plan for
                                                      AIDS Relief,” March 30, 2005 (Audit Report No. 9-663-05-005-P).

                                                                                      April 1, 2005 — September 30, 2005

12
                             Semiannual Report to the Congress


 Expanding Accountability
                               Fraud Awareness Training

 Corruption and lack of accountability are major         As part of its proactive strategy, the OIG conducts
 impediments to development and threaten to              fraud awareness training for USAID employees,
 negate years of economic growth, especially in          contractors, grantees and others. The purpose
 areas of the world beset by political instability and   of this training is to alert personnel to fraudulent
 violence. The OIG audits and investigations afford      schemes and practices so that they can prevent or
 one method of safeguarding USAID funds; however,        reduce fraud in USAID programs and operations.
 the OIG actively pursues additional methods to          In addition, the OIG promotes the Hotline and
 promote accountability and transparency. For            advises attendees of methods and procedures
 example, the OIG works with Supreme Audit               to report potential fraud, waste or abuse. The
 Institutions (SAIs) to expand their capability,         following table is a summary of the fraud awareness
 provides fraud awareness and ﬁnancial management        training provided during the current period.
 training, works with other members of the Federal
 community to improve standards and identify best
 practices, and maintains oversight of audit work
 conducted on the OIG’s behalf.

 Expanding Supreme Audit 

 Institutions’ Capabilities

 The OIG continues to work closely with selected
 Supreme Audit Institutions (SAIs). SAIs are the
 recipient countries’ principal government audit
 agencies and are often the only organizations
 that have a legal mandate to audit the accounts
 and operations of their governments. The OIG
 establishes standards and procedures for SAI audits
 of USAID funds and oversees the SAI’s work. During
 this reporting period, the OIG issued nine SAI audit
 reports. The reports included over $1 million in
 questioned costs, 21 internal control weaknesses,
 and 20 instances of material noncompliance.




April 1, 2005 — September 30, 2005

                                                                                                                          13
                               Semiannual Report to the Congress


                                  Fraud Awareness Training
 Month               Location             Sessions       Attendees                  Type of Attendee

             Cairo, Egypt                      3            189       USAID Personnel
APR 05
             Washington, DC, U.S.              1             22       USAID Personnel

MAY 05       Washington, DC, U.S.              2             54       USAID Personnel

             Cairo, Egypt                      1             24       USAID Personnel
             Lusaka, Zambia                    3            113       USAID/Contractor/Grantee Personnel,
JUN 05
                                                                      USAID Recipients,Audit Firm Personnel, and
                                                                      Zambian Ofﬁcials

             Sana,Yemen                        1             15
JUL 05       Tirana, Albania                   2             45       USAID/Contractor/Grantee Personnel
             San Salvador, El Salvador         2             26       USAID Personnel

             Bogotá, Colombia                  9            187       USAID/Contractor Personnel
AUG 05 Medellin, Colombia                      3             22       Contractor Personnel
             La Paz, Bolivia                  11            208       USAID/Contractor Personnel

             La Paz, Bolivia                   1             10       Contractor Personnel
             Kinshasa, Democratic              2             50       USAID/Contractor/Grantee Personnel,
             Republic of the Congo                                    USAID Recipients
SEP 05
             Washington, DC, U.S               1             17       USAID Personnel
             Novi Sad, Serbia                  1             15       Grantee Personnel
             Manila, Philippines               3            117       USAID Personnel

                                 Total       46            1114




Photograph of OIG personnel assembled to conduct fraud         Photograph of a fraud awareness training session underway in
awareness training in Cairo, Egypt.                            Cairo, Egypt.

                                                                                      April 1, 2005 — September 30, 2005
14
                             Semiannual Report to the Congress


  Investigations: Prevention                             Financial Management
  and Fraud Awareness                                    Training
  OIG investigative priorities are twofold: (1) to       USAID’s contracts and grants deﬁne the types of
  preserve and protect program and employee              costs that are legitimate charges to support USAID
  integrity within USAID, ADF, and IAF and (2) to        programs. To increase awareness and compliance
  prevent fraud, waste, and abuse within USAID,          with cost principles, OIG has been training
  ADF, and IAF programs and operations. During           overseas USAID staff, contractors, grantees and
  the current reporting period, the OIG has placed       others. This training provides a general overview
  emphasis on preventive strategies as part of           of both U.S. Government cost principles and
  its oversight responsibilities. Use of proactive       audit requirements. It also provides examples of
  strategies has proven to be very effective in          concepts such as reasonableness, allocability, and
  combating fraud, waste, and abuse.                     allowable and non-allowable costs.

  Accordingly, the OIG has employed a number of          During this reporting period, the OIG provided
  proactive strategies. For example, as mentioned        ﬁnancial management training in three countries
  above, fraud awareness training is given to            to about 200 individuals representing USAID
  employees, contractors, grantees and others to         missions, partners and recipients; accounting
  alert them to fraudulent practices and schemes         ﬁrms; Supreme Audit Institutions; and various
  and advise them on how to report fraud. When           government ministries.
  requested, the training is tailored for presentation
  to speciﬁc groups, such as contracting ofﬁcers or      Federal-wide Quality
  Cognizant Technical Ofﬁcers. Most importantly,
  investigations resulting in criminal and/or civil      Control Review Program
  prosecution are publicized on the Agency’s
  website and other publications, thereby calling        USAID/OIG is one of a group of ofﬁces participating
  attention to prosecutorial action taken against        in the Federal Government’s Single Audit Quality
  individuals or organizations convicted of fraud.       Control Working Group. The OIG is ﬁnalizing
  The publication of prosecutorial actions serves        three reviews of audits performed on grantees
  as a deterrent to fraud, waste and abuse.              predominately funded by USAID. The Working
                                                         Group will report on the review results of all
  In addition, the OIG has developed several             Federal agencies in ﬁscal year 2006. In addition,
  publications and promotional materials. The            OIG auditors have been working with USAID
  newest publication, “What an Investigation Means       program managers to develop audit compliance
  to You,” outlines the types of activities that the     guidance for several Global Health programs. By
  OIG investigates, the purpose of its investigations,   August 2005, this guidance was developed into a
  the investigative process, and the employee’s role     document covering HIV/AIDS, Population, and
  in that process. Another publication, “What to         Child Survival programs that will be submitted to
  Report,” provides speciﬁc guidelines for making        the Ofﬁce of Management and Budget (OMB) as an
  complaints to the OIG Hotline. The OIG “Fraud          addition to the OMB Circular A-133 Compliance
  Indicators” publication encourages the reader to       Supplement. When complete, this Compliance
  explore various techniques to identify indicators      Supplement addition will provide practical guidance
  of fraud. Furthermore, OIG Hotline posters,            on Global Health programs to independent public
  ﬂyers, and cards have been distributed to the          accountants conducting audits of USAID’s domestic
  OIG’s overseas ofﬁces. In an effort to expand our      grantee partners.
  outreach efforts, these materials were produced in
  English, Spanish, French, and Arabic.
April 1, 2005 — September 30, 2005

                                                                                     15
                         Semiannual Report to the Congress


Presentations to Federal and
Nonfederal Audiences
In April 2005, USAID’s Acting Inspector General
hosted the 2nd Annual Intragovernmental Audit
Forum at the Department of Education. At this
Forum, representatives from the IG community,
Government Accountability Ofﬁce, and OMB
gathered to discuss accelerated ﬁnancial reporting
deadlines and best practices learned from ﬁscal
year 2004. Also, in June 2005, OIG representatives
were guest speakers at the Association of Private
Voluntary Organizations Financial Managers
Annual Conference in Washington, D.C. Financial
representatives from every one of USAID’s
major domestic nonproﬁt partners listened to
OIG representatives discuss the OIG’s oversight
approach, concerns and current areas of focus,
and descriptions of how OIG activities impact the
grantee community.

Oversight of Audit Work
Conducted on the OIG’s
Behalf
The OIG maintains oversight of audit work
conducted by Federal and non-Federal auditors.
The Defense Contract Audit Agency (DCAA)
conducts audits, reviews, and pre-award surveys
of U.S.-based contractors on USAID’s behalf; the
OIG then reviews DCAA’s reports and transmits
them to USAID management. In addition, the
OIG provides oversight of non-Federal auditors
who perform audits of U.S.-based nonproﬁt and
foreign organizations that receive USAID funds
and conducts quality-control reviews to determine
if the audits comply with U.S. Government
requirements.

During this reporting period, the OIG issued 183
audit reports which identiﬁed about $30.6 million
in questioned costs, covering about $2.4 billion
audited.



                                                       April 1, 2005 — September 30, 2005

16
                              Semiannual Report to the Congress

 Introduction to                                        Support Bureaus
 USAID Bureaus and                                       • 	 Policy and Program Coordination

 Independent Ofﬁces                                      • Management

 The Ofﬁce of the Inspector General’s audit or           • Legislative and Public Affairs
 investigative results are presented under the
 appropriate USAID unit or bureau.                      Centralized programs and services that serve
                                                        the entire USAID organization are the focus of
 USAID is organized into ten major bureaus and          the support bureaus. The tasks of these three
 ﬁve independent ofﬁces. The bureaus are divided        support bureaus encompass policy formulation,
 by region, program focus, and support function.        coordination, budget formulation, resource
 USAID’s bureaus are:                                   allocation, management services (including
                                                        information technology, personnel and ﬁnancial
 Regional Bureaus                                       management), and public and Congressional
                                                        liaison.
     • Africa
                                                        Independent Ofﬁces
     • 	 Asia and the Near East
                                                         • 	 Ofﬁce of the Executive Secretariat
     • Europe and Eurasia
                                                         • 	 Ofﬁce of Equal Opportunity Programs
     • 	 Latin America and the Caribbean
                                                         • 	 Ofﬁce of the General Counsel
 The regional bureaus formulate, approve, direct, and
 implement economic assistance programs with the         • Global Development Alliance Secretariat
 ﬁeld mission staff under their responsibility.
                                                         • 	Ofﬁce of Small and Disadvantaged Business
 Program/Pillar Bureaus                                     Utilization and Minority Resource Center

     • 	 Democracy, Conflict and Humanitarian 
          • Ofﬁce of Security
         Assistance

                                                        The independent ofﬁces, headed by directors
     • 	 Economic Growth, Agriculture and Trade         who are appointed by the Administrator, provide
                                                        specialized functions for USAID.
     • Global Health

 The pillar bureaus provide leadership, technical
 expertise, and management worldwide in primary
 focus areas.

 The program activity or technical expertise
 supports USAID’s regional bureaus, ﬁeld missions
 and other operational units.




April 1, 2005 — September 30, 2005

                                                                                                                                                             17
                                         Semiannual Report to the Congress

                                                                                           The OIG recommended that USAID/Uganda
Bureau for Africa
                                                                         (1) schedule a data-quality assessment for its
                                                                                           performance indicator reporting the prevention
Audits of USAID’s Implementa-                                                              of mother-to-child transmission, (2) develop a
tion of the President’s Emergency                                                          plan to identify alternate sources for test kits
Plan for AIDS Relief                                                                       in the event of future supply disruptions, and
                                                                                           (3) revise its outdated targets for the strategic
Congress enacted legislation to ﬁght HIV/AIDS                                              objective that addresses Improved Human
internationally through the President’s Emergency                                          Capacity8 and reﬂect the revised targets in the
Plan for AIDS Relief (Emergency Plan). The $15                                             Performance Management Plan.
billion, 5-year program provides $9 billion in new
funding to speed up prevention, care and treatment                                         Management decisions have been reached on
services in 15 focus countries. The Emergency Plan                                         all recommendations.
also devotes $5 billion over 5 years to bilateral
programs in more than 100 countries and increases                                          (Audit Report No. 4-617-05-006-P)
the U.S. pledge to the Global Fund7 by $1 billion
over 5 years.                                                                              USAID/Kenya
Audits of the Emergency Plan were conducted in                                             The OIG determined that USAID/Kenya has
ﬁve locations during this reporting period, four in                                        a principal role in the President’s Emergency
Africa and one in the Caribbean. The objectives                                            Plan for AIDS Relief activities in Kenya for HIV/
of the audits were to determine (1) how USAID                                              AIDS prevention and care, as well as a major
participated in the Emergency Plan; (2) whether                                            supporting role for HIV/AIDS treatment; its
USAID’s HIV/AIDS activities progressed as expected                                         partners were progressing as expected toward
towards planned outputs in their grants, cooperative                                       meeting planned outputs in their agreements
agreements, and contracts; and (3) whether USAID’s                                         and contracts; and USAID/Kenya’s HIV/AIDS
HIV/AIDS activities contributed to the overall U.S.
Government’s Emergency Plan targets. Four of
these audits are brieﬂy summarized below; the ﬁfth
is summarized on page 29.

       USAID/Uganda
       The OIG determined that USAID/Uganda has
       had a principal role in the President’s Emergency
       Plan for AIDS Relief activities in Uganda for HIV/
       AIDS prevention and care, as well as for HIV/
       AIDS treatment; its partners were progressing
       better than expected towards meeting planned
       outputs in their agreements and contracts;
       and its HIV/AIDS activities were contributing                                    Photograph of an individual who learned to sew in a USAID
                                                                                        HIV/AIDS-sponsored program, which provided him a means of
       signiﬁcantly to the overall U.S. Government’s                                    sustainable support.
       Emergency Plan care and treatment targets.

                                                                                    8
                                                                                      Improved Human Capacity includes programs targeting, for example, the
7
  The Global Fund is a public-private partnership that raises money to ﬁght AIDS,   number of orphans and vulnerable children receiving care and support and the
tuberculosis, and malaria.                                                          number of individuals receiving voluntary counseling and testing.


                                                                                                                  April 1, 2005 — September 30, 2005

18
                             Semiannual Report to the Congress

      activities are contributing signiﬁcantly to the              training for partners in reporting and
      U.S. Government’s Emergency Plan care and                    maintaining supporting documentation, and (3)
      treatment targets.                                           require its partners to develop strategies for
                                                                   the sustainability of Emergency Plan activities.
      The OIG recommended that USAID/Kenya
      (1) develop a monitoring plan based on a risk                Management decisions were reached on all
      assessment of its partners and their activities,             recommendations, and ﬁnal action has taken
      (2) place into action a plan to ensure more                  place on two recommendations.
      effective coordination and knowledge-sharing
      with and among its partners, (3) develop and                 (Audit Report No. 7-611-05-005-P)
      implement a new procurement and distribution
      system for HIV test kits, (4) require that its               USAID/Rwanda
      partners develop strategies for the sustainability
      of their activities, and (5) request Emergency               The OIG determined that USAID/Rwanda has
      Plan funding for nutritional assistance to be                the primary role in the Emergency Plan Activities
      provided to malnourished patients receiving                  in Rwanda for prevention and care, and a major
      anti-retroviral treatment.                                   supporting role for HIV/AIDS treatment. In
                                                                   addition, its partners were progressing as
      Management decisions have been reached on                    expected towards meeting planned outputs
      all recommendations.                                         in their cooperative agreements,9 and USAID/
                                                                   Rwanda’s HIV/AIDS activities of prevention,
      (Audit Report No. 9-615-05-007-P)                            care and treatment contributed signiﬁcantly
                                                                   to the U.S. Government’s Emergency Plan
      USAID/Zambia                                                 targets.

      The OIG determined that USAID/Zambia has                     Nevertheless, the OIG recommended that
      a principal role in the President’s Emergency                USAID/Rwanda (1) require periodic forums of
      Plan for AIDS Relief activities in Zambia                    all Emergency Plan partners to exchange ideas
      for prevention and care, as well as a major                  and learn from each other’s experiences, (2)
      supporting role for HIV/AIDS treatment.                      develop procedures requiring documented site
      Its partners were progressing as expected                    visits, and (3) assess the quality of quantitative
      towards meeting planned outputs in their                     data and document the assessment.
      agreements and contracts. However, the
      Mission did not provide adequate oversight of                Management decisions were reached on all
      all partner activities, and results reported by              recommendations.
      some partner consortiums were not accurate
      or adequately supported. Finally, the OIG                    (Audit Report No. 4-696-05-005-P)
      found that USAID/Zambia’s HIV/AIDS activities
      were contributing signiﬁcantly to the overall        Audit of USAID/South Africa’s
      U.S. Government’s Emergency Plan prevention          Global Development Alliance
      and care targets and to a lesser extent to the
      treatment targets.
                                                           Program
                                                           The OIG conducted this audit as part of a
      The OIG recommended that USAID/Zambia
                                                           worldwide effort to review USAID’s management of
      (1) engage the U.S. Government Emergency
                                                           Global Development Alliances (GDAs). GDAs are
      Plan Team to explore options for minimizing
      the strain on human resources to ensure
      adequate oversight of activities, (2) schedule       9
                                                               All of USAID/Rwanda’s partners are under cooperative agreements.

April 1, 2005 — September 30, 2005
                                                                                                                 19
                           Semiannual Report to the Congress

understandings between USAID and other parties
in the development community to jointly deﬁne a
development problem and jointly contribute to its
solution.

The objectives of the audit were to determine if
USAID/South Africa considered utilizing GDAs
in planning its activities and reported its GDAs
accurately and completely, and whether the GDAs
achieved their intended results.

The OIG determined that USAID/South Africa
considered utilizing GDAs in planning its activities.
Also, USAID/South Africa reported its GDA
                                                         Photograph of people waiting to obtain water from a water
information completely although it did not always        pump ﬁnanced by USAID. Water is a scarce commodity in
report its GDAs accurately. The OIG found six            southern Sudan.
reporting errors—including incorrect data sources
and agreement mechanisms— in the four GDAs              implemented and (2) actions to mitigate the risks
described in the Mission’s 2004 Annual Report.          that it faces in operating in a dangerous and dynamic
Finally, because USAID/South Africa did not             environment. The survey included a review of
always plan and include performance indicators          issues such as stafﬁng and administration, USAID
and intended results with its GDA alliances, it was     branding, program monitoring, technical skills and
not possible to determine if the GDAs had met           development, audit coverage, transportation, and
intended results.                                       transparency and accountability.

The OIG included four recommendations to assist         The OIG found that the USAID/SFO Program
USAID/South Africa in strengthening the GDA             for ﬁscal year 2005 was designed to help prepare
information in its Annual Report, correcting the        southern Sudan for the transition from conﬂict to
reported amounts in the GDA database, improving         peace. The programs addressed good governance,
its documentation system and support for reported       basic education, health, economic recovery,
partner contributions, and developing indicators or     infrastructure rehabilitation, and expanded support
intended results for GDA alliances.                     to the peace process.

Management decisions were reached and ﬁnal              (Report No. 4-650-05-001-S)
action has been taken on all recommendations.
                                                        Investigation Results in Letter of
(Audit Report No. 4-674-05-004-P)
                                                        Admonishment
Survey of USAID/Sudan Field                             The OIG initiated an investigation based on an
Ofﬁce                                                   allegation of voucher fraud by a USAID employee.
                                                        The investigation revealed that the employee
The OIG conducted this survey of the USAID/             certiﬁed travel vouchers indicating that commercial
Sudan Field Ofﬁce (SFO) in order to identify areas      lodging expenses were incurred while on TDY
for future audits. This survey was conducted to         when, in fact, they were not. The employee’s false
identify USAID/Sudan Field Ofﬁce (1) program and        certiﬁcation caused USAID to pay $2,697 for costs
project activities that are underway or planned         that were not incurred. During the investigation,
for ﬁscal year 2005 and how they are being              the employee admitted to making the improper

                                                                               April 1, 2005 — September 30, 2005

20
                             Semiannual Report to the Congress

 certiﬁcations and receiving the overpayments.        the Cashier’s Ofﬁce of a USAID Mission in Africa
 As a result of the investigation, USAID issued a     and had since departed for a position with the
 Bill for Collection to recover the overpayments      U.S. Embassy’s Cashier’s Ofﬁce, the USAID OIG
 and admonished the employee for the improper         initiated a joint investigation with the Department
 conduct.                                             of State (DOS) OIG and Diplomatic Security
                                                      Service. The investigation revealed that the former
 Investigation Results in the                         FSN employee had used his positions with USAID
 Suspension of 18 Foreign Service                     and the U.S. Embassy in order to engage in an
                                                      elaborate scheme to embezzle over $200,000.
 National Employees
                                                      Based upon the evidence collected and presented
 The OIG received allegations of fraud involving      to the U.S. Attorney, the case was accepted for
 the use of gasoline payment coupons by USAID         criminal prosecution. A federal indictment and
 motor pool drivers. Accordingly, the OIG             an arrest warrant were issued and agents from
 initiated an investigation with the assistance of    the USAID OIG and the DOS OIG successfully
 the Embassy’s Regional Security Office. The          arrested the former employee.
 investigation revealed that a number of Foreign
 Service National (FSN) Mission drivers were
 engaged in a scheme to defraud USAID through
 the cashing of gas vouchers for amounts larger
 than what was being pumped into the vehicles.
 The drivers would then pocket the difference.
 The investigative findings were referred to the
 USAID Mission, which subsequently suspended
 18 of the FSN employees without pay. Seventeen
 FSN employees received one-day suspensions,
 while one received a three-day suspension.

 Investigation Leads to Suspension
 of Four Foreign Service National
 Employees
 The OIG initiated an investigation after receiving
 allegations that four Foreign Service National
 (FSN) Mission drivers had submitted fraudulent
 travel vouchers. The investigation substantiated
 the allegations, and the matter was referred to
 the USAID Mission for administrative action.
 Subsequently, the Mission suspended each of the
 four drivers for three days without pay.

 Investigation Leads to Indictment
 and Arrest
 Upon receipt of the allegations of theft and
 embezzlement involving a former Foreign Service
 National (FSN) employee who had worked in
April 1, 2005 — September 30, 2005

                                                                                                                 21
                               Semiannual Report to the Congress

                                                               ity-building under its electrical power sector
Bureau for Asia and the                                        projects, the OIG determined that much more
Near East                                                      needed to be done in the areas of operations
                                                               and maintenance. Unless the electrical infra-
Audit of USAID/Iraq’s Electrical                               structure is properly operated and maintained,
                                                               this infrastructure will be at risk of sustaining
Power Sector Activities                                        damage following its transfer to the Iraqi gov-
                                                               ernment.
Since the end of the conﬂict in Iraq, USAID
has been directly involved in the effort to                    The OIG recommended that USAID develop
rebuild and rehabilitate the country’s critical                a multi-year strateg y outlining its plan of
infrastructure. Years of minimal repairs and no                activities to streng then the Iraqi institutional
regular maintenance, coupled with fuel shortages               capacit y to properly operate and maintain
and vandalism, have left Iraq’s national electrical            the electrical infrastructure rebuilt or
system with limited power-generating capacity.                 rehabilitated by the U. S. government .
The OIG performed this audit to determine                      A management decision was reached on this
whether (1) USAID’s projects to rebuild                        recommendation.
and rehabilitate Iraq’s electrical network
were achieving their intended outputs and                      (Audit Report No. E-267-05-003-P)
(2) institutional capacity-building was being
addressed in these projects to ensure their                    Audit of USAID/Iraq’s Water
sustainability.
                                                               and Sanitation Rehabilitation
                                                               Activities
                                                               According to various U.S. Government reports,
                                                               Iraq’s water treatment and sewage facilities
                                                               are operating at considerably less than normal
                                                               capacity. USAID awarded two contracts for
                                                               rehabilitation, repair, and reconstruction of these
                                                               facilities.

                                                               The OIG conducted this audit to determine
                                                               (1) whether USAID’s water and sanitation
                                                               rehabilitation projects were achieving their
                                                               intended outputs and (2) whether USAID was
 Photograph of new smokestacks under construction at a         addressing institutional capacity-building in its
 power plant where USAID funded a project to install two new   projects to rebuild and rehabilitate Iraq’s water
 turbines.
                                                               and sanitation sector infrastructure.

The OIG found that USAID’s electrical power                    The OIG found that the water and sanitation
sector projects were not always achieving their                rehabilitation projects were achieving their
intended outputs for reasons beyond USAID’s                    intended outputs with some exceptions. These
control, including revisions in the U.S. govern-               exceptions were due to security conditions,
ment’s spending priorities and deteriorating                   access to project site problems, and lack of
security conditions. In addition, while USAID                  local government cooperation.    Since these
was found to be addressing institutional capac-                causes were beyond the control of USAID and

                                                                                   April 1, 2005 — September 30, 2005

22
                                   Semiannual Report to the Congress

 its implementing partners, the OIG did not                        The OIG determined that seven of ten APEP
 issue a recommendation. The OIG also found                        activities achieved their planned outputs
 that USAID addressed the issue of institutional                   for calendar year 2004. The other three
 capacity-building in its projects to rebuild                      APEP activities (textbook distribution, grade
 and rehabilitate Iraq’s water and sanitation                      equivalents, and female students enrolled) had
 infrastructure through the provision of training                  not achieved their planned outputs because
 and operating manuals. Furthermore, USAID                         of a delay in receiving funding for the APEP,
 had taken steps to institute operations and                       security concerns, and the conservative attitude
 maintenance support and training at the plant                     regarding the value of providing education to
 level in order to preserve the U.S. Government’s                  females.
 investment.
                                                                   Although USAID/Afghanistan generally moni-
                                                                   tored program progress, it did not perform
                                                                   annual contractor performance evaluations
                                                                   as required by USAID guidance. As a result,
                                                                   information on the APEP contractor’s perfor-
                                                                   mance was not officially documented.

                                                                   The OIG made four recommendations to
                                                                   address the issues above and to conduct and
                                                                   document a performance evaluation of the
                                                                   contractor.

                                                                   Management     decisions were   reached
                                                                   and final actions were taken on all the
     Photograph of one of the eight rehabilitated aeration tanks   recommendations.
     in operation at a wastewater treatment plant funded under
     USAID/Iraq’s Infrastructure Reconstruction Program.           (Audit Report No. 5-306-05-005-P)

 The report contained no recommendations.                          Audit of USAID/India’s Global
                                                                   Development Alliances
 (Audit Report No. E-267-05-004-P)
                                                                   This audit was one in a series of worldwide
 Audit of USAID/Afghanistan’s                                      audits of Global Development Alliances
                                                                   (GDAs). GDAs are understandings between
 Primary Education Program                                         USAID and other parties in the development
 The objective of the audit was to determine                       community to jointly define a development
 whether USAID/Afghanistan’s Primary Edu-                          problem and jointly contribute to its solution.
 cation Program activities were on schedule
                                                                   The objectives of the audit were to determine
 to achieve key planned outputs.
                                                                   if USAID/India considered utilizing GDAs in
 In January 2003, USAID/Afghanistan awarded                        planning its activities and reported its GDAs
 a $16.5 million contract to implement the                         accurately and completely, and whether the
 Afghanistan Primary Education Program                             GDAs achieved their intended results.
 (APEP).    Since the award date, contract
                                                                   The OIG determined that USAID/India did
 modifications have increased the estimated
                                                                   consider utilizing GDAs in planning its activities.
 costs of the program to $ 87.9 million.
                                                                   However, although USAID/India reported its
April 1, 2005 — September 30, 2005

                                                                                                       23
                          Semiannual Report to the Congress

GDAs as required, the information reported            The OIG recommended that the Mission revise
was not complete or accurate. Because of              its fiscal year 2004 Annual Report to correct
this incomplete reporting, USAID’s ability            the error and that USAID/Jordan correct its
to evaluate the full scope and effectiveness          Performance Management Plan.
of USAID/India’s GDAs was limited. Two of
the five GDAs managed by USAID/India were             Management decisions were reached on both
active in fiscal year 2003, and both achieved         recommendations, and final actions have been
their intended results for that year.                 taken on Recommendation No. 1.

The OIG made two recommendations to                   (Audit Report No. 6-278-05-003-P)
improve USAID/India’s reporting of GDA
information in its annual reports and in its          Audit of USAID/Iraq’s Cash
submissions to the GDA Secretariat.                   Control Procedures
Management decisions were reached and final           The OIG performed this audit to determine
action was taken on both recommendations.             whether USAID/Iraq (1) managed its cashiering
                                                      operations in accordance with established
(Audit Report No. 5-386-05-006-P)
                                                      regulations, policies, and procedures and
                                                      (2) properly calculated and disbursed cash
Audit of USAID/Jordan’s Wa-                           payroll payments to its foreign service national
ter Resources Management                              workforce in accordance with established
Activties                                             regulations, policies, and procedures.

The OIG performed this audit to determine             The OIG determined that USAID/Iraq properly
(1) the status of USAID/Jordan’s water                managed its cashiering operations, and properly
resources management activities and (2) if            calculated and disbursed its foreign service
the activities had progressed towards their           national cash payroll payments. However,
intended results.                                     USAID/Iraq did not require its regional
                                                      representatives to sign a form to confirm that
The OIG determined that, as of August 2004,           they received the petty cash funds sent to
USAID/Jordan was managing 13 active water             them. This unnecessarily exposed the Mission
resources projects with estimated costs of            and the people responsible for transporting and
about $250 million and that USAID/Jordan did          receiving the cash, to the risk that someone
not meet it fiscal year 2003 targets. According       could misappropriate the funds and deny
to Mission officials, they did not meet planned       having responsibility because of the uncertainly
targets because of a deteriorating security           surrounding when accountability over the cash
situation, the assassination of a Mission official,   was transferred.
and the onset of the Iraq war, which caused
the Mission to evacuate personnel from the            The OIG recommended that the Mission
country. However, contrary to these findings,         finalize and implement its draft policy requiring
USAID/Jordan reported in its fiscal year 2003         regional offices to accept, in writing, petty
Annual Report that it had met its 2003 targets        cash funds delivered to them by the Mission’s
in the water sector. In addition, USAID/              cashier’s office.
Jordan’s Performance Management Plan, a
required report, did not include all required         A management decision and final action were
elements.                                             reached on the recommendation.

                                                      (Audit Report No. E-267-05-005-P)
                                                                         April 1, 2005 — September 30, 2005
24
                             Semiannual Report to the Congress

 Investigation Leads to Termi-                    USAID Mission. However, before any action
                                                  could be taken, the FSN suddenly resigned,
 nation of Foreign Service Na-                    citing personal reasons.
 tional Employee and Savings of
 $24,000                                          Investigation Leads to Recovery
 The OIG initiated an investigation based on
                                                  of over $46,000
 allegations that a Foreign Service National      An OIG investigation was initiated based on
 (FSN) employee solicited and received            allegations that a sub-grantee of the USAID
 commissions from contractors awarded             prime grantee billed $80,000 in unallowable
 USAID contracts to perform various               costs on a $128 million cooperative agreement
 maintenance tasks. It was also alleged that      to provide basic health care services, including
 the FSN gave these contractors copies            family planning and immunizations. The OIG
 of bid solicitation letters with technical       investigation determined that, of the $80,000 in
 specifications prior to their dissemination to   questioned costs vouchered to the grantee by
 other qualified contractors.                     its sub-grantee, over $46,000 was unallowable
                                                  and inappropriately billed to USAID. As a
 The OIG investigation established that the FSN
                                                  result of the investigation, the USAID Mission
 did solicit and receive commissions from two
                                                  with oversight responsibility for the grant
 contractors in amounts equal to 5 percent of
                                                  issued a demand letter to the grantee for over
 each contract—estimated at a total of $30,000
                                                  $46,000. The grantee responded by agreeing
 by the USAID Mission. The investigation also
                                                  to issue a credit to USAID for the amount in
 verified that the FSN gave the two contractors
                                                  question.
 advanced copies of bid solicitation letters
 with technical specifications.
                                                  Investigation Results in Disal-
 As a result of the investigation, the USAID      lowed Costs of $863,683
 Mission terminated the FSN for cause and
 withheld   the    employee’s    supplemental     A contractor billed USAID $863,683 for 119 baby
 retirement of $24,000.                           incubators sold to it by a subcontractor. The
                                                  incubators were part of a multi-million dollar
 Investigation Results in Resig-                  USAID contract for health development. However,
                                                  after the incubators were delivered, they exhibited
 nation                                           a high rate of failure. After several attempts by
 The OIG initiated an investigation after it      factory representatives failed to resolve the
 received a complaint from an anonymous           problems, an independent ﬁrm was hired to test
 source that a Foreign Service National (FSN)     the incubators. That ﬁrm found that none of the
 employee had engaged in a conflict of interest   incubators met U.S. Food and Drug Administration
 related to the award of a Mission computer       (FDA) standards. Furthermore, a check with the
 contract. The FSN chaired the selection          FDA revealed that the incubators did not have
 committee and helped to choose the firm          proper FDA certiﬁcation, as the supplier had
 which was awarded the $95,000 computer           attested in its application to USAID to win the
 contract. He also served as the Cognizant        contract. Based on the investigative ﬁndings, the
 Technical Officer. The investigation revealed    USAID Mission disallowed the entire amount paid
 that the owner of the company that received      for the incubators.
 the award was the maternal cousin of the FSN.
 Accordingly, the case was referred to the

April 1, 2005 — September 30, 2005

                                                                                   25
                       Semiannual Report to the Congress

Investigation Leads to Filing of
Civil Fraud Complaint
A long term OIG investigation resulted in
the U.S. Attorney for the Southern District
of New York filing a civil fraud complaint
against two Florida-based companies and an
executive officer. The companies, which were
participant suppliers in the USAID Commodity
Import Program (CIP), brokered shipments
of pulp and resin from U.S. manufacturers to
foreign importers. The complaint alleges that
the companies systematically claimed inflated
costs for shipping and insurance which were
then reimbursed via the CIP. Pursuant to
this scheme, the complaint also alleges that
company employees forged signatures and
altered documents provided by ocean carriers
and others to make it appear that they paid
more for the services than they had, in fact,
paid. It is estimated that the companies
improperly received over a million dollars
through these fraudulent practices.




                                                     April 1, 2005 — September 30, 2005

26
                             Semiannual Report to the Congress

 Bureau for Europe and                                   Investigation Leads to $119,189
                                                         in Disallowed and Savings of
 Eurasia                                                 $2,000,000
 Investigation Leads to Suspension                       The OIG previously reported that an
 of Senior Agency Ofﬁcial                                investigation launched in coordination with a
                                                         USAID Mission resulted in the identification of
 An OIG investigation was initiated based on             questionable practices in the awarding of sub-
 an allegation that a USAID official was using a         grants by U.S.-based implementers involved in
 government owned vehicle and a USAID Mission            USAID’s Agribusiness Development Program
 driver to conduct personal business.           The      and the Private Farmers Assistance Program
 investigation revealed that the official frequently     (PFAP). As a result, USAID suspended the
 misused a government owned vehicle while posted         implementers’ abilities to issue four sub-grants
 overseas. Furthermore, the official directed the        amounting to $149,620 and the Chiefs of Party
 driver to utilize large portions of regular duty        for both implementers were removed, as well as
 hours to conduct the official’s personal errands.       one Deputy Chief of Party and two employees.
 Based on the findings of the investigation, USAID
 suspended the official for 30 days without pay          During the current reporting period, as a result
 and issued a Bill for Collection for $2,300 to          of further investigation and additional reviews
 recover the cost of the driver’s time.                  by the Mission, USAID officials disallowed over
                                                         $119,189 in questioned costs submitted by the
 Investigation Results in $31.5                          two implementers of the PFAP and concluded
                                                         the entire project early, allowing $2,000,000 to
 Million Civil Settlement                                be re-directed to other projects.
 An OIG fraud investigation and Department
 of Justice civil fraud prosecution resulted in all
 named parties to the action agreeing to settle
 claims made by the government in the amount
 of $31.5 million. The investigation involved a
 respected institute of higher learning which
 had been hired to lead the government’s effort
 at assisting Russia in its transformation from a
 communist- to a capitalist-based financial system
 supported by the rule of law. The action arose
 out of allegations that the two top officials leading
 the institute’s efforts were engaged in personal
 financial transactions in Russia, transactions that
 conflicted with their official duties under the
 project. The government had previously been
 granted a summary judgment by a Federal judge
 in the U.S. District of Massachusetts on several
 issues dealing with the liability of the named
 parties. However, before a date could be set
 for a trial to assess damages, a global settlement
 was reached.


April 1, 2005 — September 30, 2005

                                                                                                                               27
                                      Semiannual Report to the Congress

                                                                              The OIG determined that USAID considered
Global Development 
                                                          utilizing GDAs in planning its activities but that
Alliance Secretariat
                                                         the missions did not always report their GDAs
                                                                              accurately and completely and did not always
Audit of USAID’s Global Devel-                                                maintain documentation to support that their
                                                                              GDAs met the criteria to be reported as such
opment Alliances                                                              or to support partner contributions. In addition,
                                                                              although over one-third of the GDAs audited had
Global Development Alliances (GDAs) are
                                                                              either achieved their intended results or were
agreements between USAID and other parties—
                                                                              on track to do so, nearly one-half had either not
both governmental and private sector—in the
                                                                              developed performance indicators or targets or had
development community to jointly deﬁne a
                                                                              not achieved their intended results. Furthermore,
development problem and jointly contribute to its
                                                                              the OIG found that USAID did not fully disclose
solution. While working closely with development
                                                                              the nature and limitations of the data reported to
partners is certainly not new to USAID, since 2001
                                                                              external or internal parties.
the concept of public-private alliances has been
emphasized as a business model to increase USAID’s                            This report included four recommendations to
effectiveness in delivering foreign assistance.                               strengthen GDA reporting and related disclosures,
                                                                              improve GDA documentation, and help ensure that
In July 2005, the OIG issued its ﬁnal report on the
                                                                              GDAs are working towards achieving intended
results of its worldwide GDA audit. This report
                                                                              results.
summarized the results of ﬁve audits conducted
at selected missions worldwide10 and addressed                                Management decisions were reached on three of
USAID-wide issues identiﬁed during the course of                              the four recommendations.
these audits.
                                                                              (Audit Report No. 9-000-05-006-P)




 Photograph of women processing cassava at the GDA-supported
 fufu11 factory.




10
   The ﬁve USAID missions audited were Zambia, Peru, Nigeria, South Africa,
and India.
11
   Fufu is a thick, dough-like West African food.


                                                                                                 April 1, 2005 — September 30, 2005

28
                                           Semiannual Report to the Congress

                                                                                      AIDS Coordinator. The second finding dealt
  Bureau for Global                                                                   with the need for additional funding for food and
  Health                                                                              nutrition. Since USAID is now considering a draft
                                                                                      policy issued by the Office of the U.S. Global
  Audit of USAID’s Implementation                                                     AIDS Coordinator addressing sustainability and
                                                                                      the use of Emergency Plan funds to address
  of the President’s Emergency Plan                                                   food and nutrition needs, the OIG did make any
  for AIDS Relief                                                                     recommendations.

  This worldwide audit summarized the results                                         (Audit Report No. 9-000-05-009-P)
  of six OIG audits conducted at selected
  missions in Africa and the Caribbean.12 In                                          Investigation Leads to $3.3 Million
  addition to summarizing these results, this
  report addressed USAID-wide issues identified
                                                                                      Civil Settlement
  during the course of these audits.                                                  An OIG investigation of a U.S. non-profit
                                                                                      organization’s accounting practices as they
  The OIG’s objectives were to determine (1) how
                                                                                      related to USAID-administered cooperative
  USAID participated in the President’s Emergency
                                                                                      agreements resulted in the organization
  Plan for AIDS Relief activities, (2) whether
                                                                                      agreeing to settle all fraud claims levied
  USAID partners’ HIV/AIDS activities progressed
                                                                                      against it through a civil suit filed in the
  as expected towards planned outputs in their
                                                                                      Southern District of New York in the amount
  agreements and contracts, and (3) whether USAID’s
                                                                                      of $3.3 million. The suit claimed that the
  HIV/AIDS activities contributed to the overall U.S.
                                                                                      organization    had    improperly    retained
  Government’s Emergency Plan targets.
                                                                                      government funds when various agreements
  Based on the results of six audits conducted at                                     it had with USAID expired and that it took
  selected missions, the OIG concluded that USAID                                     affirmative steps to hide the existence of the
  had a principal role in the President’s Emergency                                   leftover funds from the government. As part
  Plan for AIDS Relief activities for HIV/AIDS                                        of the settlement , the organization agreed
  prevention and care, as well as either a principal or                               to enter into an organizational integrity
  a major supporting role for HIV/AIDS treatment;                                     agreement with the OIG, which calls for it to
  its partners were progressing as expected towards                                   hire an independent monitor who will ensure
  meeting planned outputs in their agreements                                         that the organization adheres to the terms
  and contracts; and its HIV/AIDS activities were                                     and conditions of its USAID cooperative
  contributing signiﬁcantly to the overall U.S.                                       agreements.
  Government’s Emergency Plan care and treatment
  targets for ﬁscal year 2004.

  This summary audit report contained two
  audit findings. The first finding pertained to
  sustainability, which was not required by the
  Department of State’s Office of the U.S. Global

 12
    Audits were conducted in this reporting period in Haiti, Kenya, Rwanda, Uganda,
 and Zambia (see pages 17, 18, and 29). An audit was conducted in Ethiopia
 during the prior reporting period, “Audit of USAID/Ethiopia’s Implementation of
 the President’s Emergency Plan for AIDs Relief,” March 30, 2005 (Audit Report No.
 9-663-05-005-P).


April 1, 2005 — September 30, 2005

                                                                                                                                      29
                                          Semiannual Report to the Congress

                                                                                    and stock levels, and USAID/Haiti did not have
Bureau for Latin                                                                    an adequate monitoring and evaluation system in
America and the                                                                     place.

Caribbean                                                                           The OIG made seven recommendations to USAID/
                                                                                    Haiti that addressed planning and ﬁnancial issues.
Audit of USAID/Haiti’s Imple-
                                                                                    Management decisions were reached on six of the
mentation of the President’s                                                        seven recommendations.
Emergency Plan for HIV/AIDS
Relief                                                                              (Audit Report No. 1- 521-05-010-P)

The President’s Emergency Plan for AIDS Relief                                      Audit of USAID/Jamaica’s Hurri-
(Emergency Plan) is a $15 billion, 5-year program                                   cane Recovery and Rehabilitation
that provides $9 billion in new funding to speed up
prevention, care and treatment services in 15 focus
                                                                                    Program
countries. The Emergency Plan also allocates $5                                     The OIG performed this audit to determine the
billion over 5 years to bilateral programs in more                                  steps USAID/Jamaica implemented to manage its
than 100 countries and increases the U.S. pledge to                                 hurricane recovery and rehabilitation program and
the Global Fund13 by $1 billion over 5 years.                                       to determine if the management processes were
                                                                                    operating as designed.
The OIG performed this audit to determine (1)
how USAID/Haiti participated in the Emergency                                       USAID/Jamaica designed 12 steps to control
Plan, (2) whether USAID/Haiti’s activities                                          signiﬁcant risks facing its hurricane recovery and
progressed as expected towards planned outputs                                      rehabilitation program. These steps included
in its grants, cooperative agreements and contracts,                                reviewing     sub-awards,      progress    reports,
and (3) whether USAID/Haiti’s HIV/AIDS activities                                   vouchers, work plans and budgets; and conducting
contributed to the overall U.S. Government’s                                        environmental and engineering assessments and
Emergency Plan targets.                                                             site visits.
The OIG determined that USAID/Haiti was heavily                                     Of the 12 management processes, four were
involved in implementing the Emergency Plan in                                      operating as designed, three were started but not
Haiti for HIV/AIDS prevention and care and played                                   far enough along to assess whether they were
a major role in supporting HIV/AIDS treatment.                                      operating as designed, and ﬁve were not operating
In addition, USAID’s implementing partners were                                     as designed.
progressing as expected towards meeting planned
outputs, and USAID/Haiti’s activities contributed to                                The OIG recommended that USAID/Jamaica
the overall Emergency Plan’s targets.                                               (1) acquire engineering services to oversee and
                                                                                    monitor the quality control reviews, (2) evaluate
However, the OIG identiﬁed problems related to                                      supporting documentation in its reviews of
the implementation of the Emergency Plan. For                                       vouchers submitted by implementing partners,
example, an adequate drug management system                                         (3) complete an environmental checklist for
had not been implemented to track drug usage                                        each project site, (4) establish clearly defined
                                                                                    roles and responsibilities for USAID officials and
                                                                                    members of the monitoring oversight firm, and
13
   The Global Fund is a partnership among governments, civil society, the private   (5) maintain a spreadsheet of target due dates
sector and affected communities that raises money to ﬁght AIDS, tuberculosis,
and malaria.                                                                        for each activity.

                                                                                                        April 1, 2005 — September 30, 2005

30
                             Semiannual Report to the Congress

 USAID/Jamaica reached management decisions on        Investigation Yields Bill                       for
 all of the recommendations.
                                                      Collection for over $47,000
 (Audit Report No. 1-532-05-008-P)
                                                      As a result of an OIG investigation, a USAID
                                                      Mission issued a $47,798 Bill for Collection to a
 Investigation Results in Savings                     U.S. supplier of baby scales. The Integral Nutrition
 of over $2,500,000 and Systemic                      Care Campaign was implemented by USAID to
 Change                                               improve infant nutrition. As part of that campaign,
                                                      USAID contracted with a U.S. supplier to provide
 The OIG initiated an investigation into Public Law   900 new baby scales; but the baby scales turned
 (PL) 480 inland transportation costs after a USAID   out to be defective and different from the agreed
 Mission reported that transportation contracts       upon speciﬁcations. The supplier agreed to replace
 were repeatedly awarded to the same companies        the scales, but never did. Due to the supplier’s
 and that the transportation costs were much higher   actions—both in providing defective products
 than standard market rates.                          and in causing the Government to incur additional
                                                      shipping costs for the return of the defective
 Although the OIG investigation did not               units—USAID issued a Bill for Collection.
 substantiate allegations that U.S.-based Private
 Voluntary Organizations (PVOs) had engaged in        Investigation Leads to Guilty
 criminal activity, the OIG did determine that PL
 480 transportation costs passed on to USAID
                                                      Plea
 by the PVOs were much higher than normal             An OIG investigation resulted in the former
 market rates for non-PL 480 items. Therefore,        controller of a USAID contractor pleading guilty to
 as a result of the investigation and subsequent      the Interstate Transportation of Stolen Property.
 recommendations for systemic change, the
 Mission undertook a thorough re-examination          This guilty plea stems from the controller’s theft of
 of the bidding process used by the PVOs.             $58,337 from his former employer, a company that
 Accordingly, the Mission completely revamped         provides development-related services in foreign
 the inland transportation solicitation process       countries throughout the world pursuant to its
 and implemented numerous improvements.               contracts with USAID. The OIG investigation
 As an example, PVOs now routinely receive            determined that the defendant stole funds from the
 six bids for services whereas in the past they       contractor’s operational expense account at a U.S.-
 would obtain only two. In addition, to add           based bank by causing checks to be issued payable
 transparency and clarity to the process, the         to himself. The former controller then took the
 PVOs now hold meetings with potential bidders        checks from the USAID contractor’s ofﬁces in
 to explain bidding and award procedures.             the District of Columbia to Virginia, where he
 These improvements have resulted in greater          deposited them to his personal bank account.
 competition among the potential bidders,
 which has lead to lower prices. Over a 2-year        Sentencing is scheduled for later this year. If
 period, inland transportation costs per metric       convicted, the former controller faces up to 10
 ton dropped approximately 36 percent—for an          years in prison and a $250,000 ﬁne.
 overall savings exceeding $2,500,000.




April 1, 2005 — September 30, 2005

                                                                                                                                            31
                                         Semiannual Report to the Congress

                                                                                     Management decisions have been reached on both
Bureau for Management
                                                               recommendations.
Memorandum Regarding the                                                             (Report No. 9-000-05-001-S)
Calculation and Collection of
U.S. Treasury Interest on the                                                        Investigation Leads to Contract
Development Credit Authority                                                         Termination
Guarantee Financing Account                                                          The OIG learned that a company which had been
                                                                                     debarred and its president incarcerated as a result of
During July 2005, the OIG issued a memorandum
                                                                                     a previous OIG investigation had misled the General
regarding the calculation and collection of U.S.
                                                                                     Services Administration (GSA) in order to maintain
Treasury interest on the Development Credit
                                                                                     a previously awarded Management, Organizational
Authority (DCA) guarantee ﬁnancing account.14
                                                                                     and Business Improvement Services contract.
The DCA is a broad ﬁnancing authority that                                           Subsequent to its debarment, the company received
allows USAID to use credit to pursue any of the                                      over $500,000 under this contract.
development purposes speciﬁed under the Foreign
                                                                                     Approximately 3 months after the company was
Assistance Act of 1961, as amended. These credit
                                                                                     debarred, the convicted company president, in one
guarantees encourage commercial banks to ﬁnance
                                                                                     of his last acts before leaving for prison, sent a letter
targeted development projects that otherwise
                                                                                     to the GSA advising that the Company Controller
would not have been funded, encourage local private-
                                                                                     (misidentiﬁed as the Chief Operating Ofﬁcer)
sector lending, and stimulate the development of
                                                                                     would now be the company’s point of contact for
local capital markets. Guarantees typically cover
                                                                                     GSA. No mention was made of the investigation, the
up to 50 percent of a loan.
                                                                                     debarment or his pending term of incarceration.
The OIG found that USAID had not calculated,
                                                                                     Accordingly, the OIG advised GSA of the company’s
billed or collected interest on the DCA ﬁnancing
                                                                                     debarment, and GSA immediately terminated the
account. The Ofﬁce of Financial Management/
                                                                                     contract.
Loan Management Division estimated that the
interest earned through September 30, 2004, was
approximately $435,000. As the cash balances in                                      Multi-Agency Investigation Yields
the ﬁnancing account have grown as the program                                       Settlement of $41.9 Million
has expanded, interest due at September 30, 2005,
is expected to be signiﬁcantly higher.                                               The OIG participated in a task force investigation
                                                                                     involving 11 Federal agencies under the direction
The OIG recommended that USAID calculate and                                         of the Department of Justice. The investigation
collect the interest due from the U.S. Treasury on                                   resulted in a U.S. contractor ﬁrm making payment
its guarantee ﬁnancing account and that USAID                                        in the amount of $41.9 million to settle civil false
implement systems and procedures to ensure that                                      claims allegations. The contractor ﬁrm received
future interest is calculated and collected in a timely                              travel-related rebates from travel service providers
manner.                                                                              such as airlines and hotels. When these rebates were
                                                                                     received, the contractor ﬁrm should have reduced or
14
                                                                                     credited the amount of the rebate against the claim
  The OIG issued the memorandum during the survey phase of the worldwide
audit of USAID’s DCAs because the summary report for the worldwide audit             for reimbursement to the government. Instead, the
will not be issued until all participating Regional Inspector General reports have   contractor ﬁrm charged the government the full
been issued—most likely in the summer of 2006. The OIG believed that these
recommendations should be brought to USAID management’s attention and
                                                                                     amount of the travel-related costs. This undisclosed
acted upon before that time.                                                         practice resulted in tens of millions of dollars in

                                                                                                           April 1, 2005 — September 30, 2005

32
                             Semiannual Report to the Congress

 losses to the government and extra proﬁt to the
 contractor ﬁrm to which it was not entitled. The
 portion of the settlement attributable to USAID
 was $3.36 million. Of this amount, $1.4 million was
 returned to USAID, while the remainder went to
 the U.S.Treasury.




April 1, 2005 — September 30, 2005

34
                             Semiannual Report to the Congress


        African Development Foundation

 The African Development Foundation (ADF) is a          deﬁciencies found in the audits. The OIG presents
 public corporation and Federal agency established      audit recommendations to ADF through its annual
 by the United States Congress in 1980. It began        ﬁnancial statement audit report.
 operations in 1984 and is the only U.S. government
 agency working solely at the grassroots level in       Performance audits also play an important role
 Africa to alleviate poverty and promote broad-         in maintaining ADF accountability. After initially
 based sustainable development. Over the past           identifying relevant management controls, the
 two decades, ADF has provided more than $200           OIG performed risk assessments of selected ADF
 million in programming support to more than 1,600      operations. These assessments were used to
 projects in 27 countries.                              determine where selected ADF operations could
                                                        be vulnerable and to assist in developing future
 ADF believes that local communities are a vital        audit plans.
 source of ideas and energy for development.
 ADF makes grants directly to African enterprises
 and non-governmental organizations; none of            Management
 its resources pass through government agencies
 or international organizations. Most of ADF’s
                                                        Challenges
 grants are between $50,000 and $250,000 and are        In pursuit of its mission, ADF faces a number of
 disbursed to grantees in local currency.               problems, concerns, and difﬁcult issues.
 Based in Washington, D.C. and governed by a
 seven-member Board of Directors appointed by           Performance Monitoring

 the President of the United States, ADF receives
 its funding from congressional appropriations and      ADF faces a challenge with its indigenous partner
 obtains signiﬁcant additional funding from strategic   organizations that provide technical support and
 partnerships with African governments and from         training to ADF grantees, visit projects regularly
 other sources. Congress appropriated $19 million       to monitor progress, and assist with on-the-
 to ADF in ﬁscal year 2005. Currently, ADF is           ground trouble-shooting. ADF’s goal is to help
 supporting approximately 225 projects in 15 African    these partners become ﬁnancially sustainable and
 countries.                                             widely recognized as development experts in their
                                                        respective countries.

 OIG Strategy
                                          ADF has strengthened its performance-
                                                        monitoring system by (1) aligning grantee
 The OIG is implementing a comprehensive                project performance indicators with ADF’s
 strategy—including ﬁnancial, performance, and          strategic plan objectives, (2) instituting quarterly
 information systems audits—to maintain effective       monitoring and reporting on projects, and (3)
 oversight of ADF operations. An essential aspect of    conducting semiannual reviews of its country
 the strategy lies in the OIG’s annual audit of ADF’s   project portfolios. These reviews are providing
 ﬁnancial statements. To achieve the most timely        ADF with greater insight into the strengths
 and cost-effective audits, the OIG coordinates this    and weaknesses of its project development and
 audit work with non-Federal auditors and provides      approval processes.
 on-going technical audit advice and liaison to ADF
 and its auditors. In addition, the OIG advises
 the auditors and, where appropriate, ADF of any

April 1, 2005 — September 30, 2005

                                                                                                       35
                          Semiannual Report to the Congress

Implementing an Integrated Fin-                        The OIG anticipates performing future work at
                                                       ADF.
ancial Management System
The ﬁscal year 2005 ﬁnancial audit is currently
underway, and the audit report will be issued by
November 15, 2005.


OIG Oversight
Activities
Audit of African Development
Foundation’s Monitoring, Report-
ing and Evaluation System
The OIG conducted an audit of the African
Development Foundation’s (ADF) monitoring,
reporting, and evaluation system. The OIG noted
weaknesses in both ADF’s grant close-out and
ﬁnancial audit processes. Furthermore, weak
implementation of its monitoring, reporting,
and evaluation system resulted in inaction on
a Government Accountability Ofﬁce (GAO)
decision, cost over-runs of almost 50 percent at its
Jigawa, Nigeria housing projects, and improper and
unsupported costs of $146,000. Lastly, unless the
relationship with the current partner organization
that monitors, evaluates, and reports on ADF-
funded activities in Namibia is extended or a
replacement partner is found, after September 30,
2005, ADF will not have a partner organization in
Namibia to monitor its activities.

The report’s primary recommendations were to
(1) strengthen the grant close-out and ﬁnancial
audit processes, (2) ensure partner organizations
are involved in all projects in their country(s)
of responsibility, (3) deposit funds into the U.S.
Treasury according to GAO instructions, and (4)
recover $146,000 that ADF improperly paid for the
medical-related costs of a consultant.

Management decisions were reached on all recom-
mendations.

(Audit Report No. 9-ADF-05-008-P)

                                                                         April 1, 2005 — September 30, 2005

36
                             Semiannual Report to the Congress


                 Inter-American Foundation

  The Inter-American Foundation (IAF) is an               Performance audits also play a key role in
  independent Federal agency established by the           maintaining IAF accountability. After initially
  United States Congress in 1969 to support grass         identifying relevant management controls, the
  roots development in Latin America and the              OIG performed risk assessments of selected IAF
  Caribbean. Since then, it has funded more than $571     operations. These assessments were used to
  million in over 4,500 projects in 32 countries.         determine where selected operations could be
                                                          vulnerable and to assist in developing future audit
  IAF provides grants to nongovernmental and              plans.
  community-based organizations in Latin America
  and the Caribbean for innovative, sustainable,
  and participatory self-help programs.           IAF     Management
  primarily funds partnerships among grassroots
  and nonproﬁt organizations, businesses and local
                                                          Challenges
  governments directed at improving the quality of        In pursuit of its mission, IAF faces a number of
  life of poor people and strengthening participation,    programmatic challenges and difﬁcult issues.
  accountability and democratic practices.

  Based in Arlington, Virginia, IAF has 47 employees      Performance Monitoring and
  and is governed by a nine-member Board of               Results Documentation
  Directors appointed by the President of the United
  States. Its operating and program budgets consist       IAF has formed 20 partnerships with 110
  of congressional appropriations and funds derived       corporate foundations and businesses throughout
  through the Social Progress Trust Fund. Congress        Latin America to co-fund development projects.
  appropriated $18 million to IAF in ﬁscal year           IAF is using this network to transfer its project
  2005. Currently, IAF supports 213 projects in 26        methodology and approach to these foundations
  countries.                                              and businesses to foster sustainability. These
                                                          partnerships, however, presented IAF with a
  OIG Strategy
                                           challenge—how to monitor grants made through
                                                          the partnerships. To address this challenge, IAF
  The OIG is implementing a comprehensive                 developed a system for auditing its partnerships and
  strategy to maintain effective oversight of IAF         introduced this new system to its ﬁeld auditors. In
  operations that includes ﬁnancial, performance,         addition, IAF is developing performance indicators
  and information systems audits. The ﬁrst key            and evaluation measures that will be incorporated
  aspect of the strategy lies in the OIG’s annual audit   into a Grassroots Development Framework for
  of IAF’s ﬁnancial statements. The OIG contracts         data-gathering and analysis.
  with non-Federal auditors, coordinates the work
  to achieve the most timely and cost-effective           IAF is also focusing greater attention on developing
  audit, and provides on-going technical audit advice     performance indicators to measure progress
  and liaison to IAF and its auditors. Also, the OIG      in attaining intangible program results, such as
  advises the auditor and, where appropriate, IAF         democracy-building and other societal changes.
  of any deﬁciencies found in the audits. The OIG         IAF has awarded a contract that will examine the
  presents audit recommendations to IAF through           suitability and effectiveness of these performance
  its annual ﬁnancial statement audit report.             indicators.


April 1, 2005 — September 30, 2005

                                                                                       37
                           Semiannual Report to the Congress

In addition, IAF is working with migrant groups in
the U.S. to assist them in channeling some of the $40
billion in annual remittances, currently sent home to
Latin America, into development activities.

Administrative and
Organizational Structure
IAF has implemented several major management
initiatives, including outsourcing of several
administrative functions and changing its
organizational structure. These initiatives have
resulted in timelier ﬁnancial reporting, swifter
procurements, and enhanced budget management.

OIG Oversight
Activities
The OIG did not perform any performance
audits during this reporting period but anticipates
performing future work at IAF.




                                                         April 1, 2005 — September 30, 2005

    39




A
P
P
E
N
D
I
C
E
S
40
                              Semiannual Report to the Congress

                                       REPORTS ISSUED

                                  April 1, 2005 through September 30, 2005
                                                     USAID 

                                           Financial Audit Reports
                                                                                                            Amount of
            Report          Date of                                                                                      Type of
                                                                  Report Title                               Findings
            Number          Report                                                                                      Findings
                                                                                                              ($000s)


                                       —FOREIGN-BASED ORGANIZATIONS—


     0-000-05-069-D         05/26/05   The Malaria Emergency Training and Operational Response
                                       Initiative, Report on Audit of Pre-Award Accounting System

     0-000-05-082-D         07/12/05   The Motivation Charitable Trust, Report on Post-Award Accounting
                                       System Follow-up
     0-000-05-095-D         09/13/05   The Malaria Emergency Training and Operational Response
                                       Initiative, Report on Audit of Pre-Award Accounting System Follow-
                                       up
     1-519-05-009-N         05/05/05   Quarterly Financial Statement Audit of the Special Objective Grant
                                       Agreement, Earthquake Recovery Program, Schools, Micro and
                                       Small Business (Local Municipal Markets) and Health Facilities
                                       Reconstruction Activities, Activity No. 519-0458, Managed by the
                                       Social Investment Fund for Local Development, for the Quarter
                                       Ended December 31, 2004
     1-519-05-010-N         06/06/05   Concurrent Financial Statement Close-Out Audit of the Mother and        20         QC
                                       Child Community Health Services Project in Santiago de Maria, El
                                                                                                               20         UN
                                       Salvador, Grant Agreement No. 519-A-00-01-00213-00, Project No.
                                       519-0458, Managed by AmeriCares Foundation, Inc., for the Quarter
                                       Ended September 30, 2004
     1-519-05-011-N         06/14/05   Concurrent Audit of the Fund Accountability Statement of the
                                       Special Objective “Earthquake Recovery Program” Housing Activity,
                                       Agreement No. 519-0458, Managed by the National Popular
                                       Housing Fund, for the Quarter Ended December 31, 2004
     1-520-05-012-N         08/12/05   Closeout Financial Statement Audit of the Rural Development Trust
                                       Fund, Project Nos. 520-0425.10 and 520-0426.23, Managed by
                                       Banco de Desarrollo Rural, for the Year Ended December 31, 2003
     1-527-05-046-R         04/06/05   Closeout Fund Accountability Statement Audit for the Framework          62         QC
                                       Subagreement of the Execution of the Alternative Development
                                                                                                               62         UN
                                       Program, Subscribed Between the National Commission for
                                       Development and Life Without Drugs DEVIDA (Previously,
                                       CONTRADROGAS) and the National Institute for Development
                                       - INADE, Financed by Grant Agreement No. 527-0348, Executed
                                       Between the Governments of the United States and Peru, Managed
                                       by the Special Project South Central Mountains for the Period
                                       January 1, 2002 to November 30, 2003




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                      Appendix A

                                                                                                                               41
                      Semiannual Report to the Congress

                                                                                                      Amount of
          Report    Date of                                                                                           Type of
                                                          Report Title                                 Findings
          Number    Report                                                                                           Findings
                                                                                                        ($000s)
   1-527-05-047-R   05/04/05   Closeout Fund Accountability Statement Audit of “USAID Resources
                               Under Framework Sub-Agreement for Execution of the Alternative
                               Development Program INADE - CONTRADROGAS (now DEVIDA)
                               Agreement No. 527-0348,” Managed by Special Project Pichis
                               Palcazu for the Period January 1, 2002 to June 30, 2003
   1-521-05-048-R   05/10/05   Closeout Fund Accountability Statement Audit of the Forum 2000              8            QC
                               Project Under the Recovery of the Economy in Transition Program,
                                                                                                           8            UN
                               USAID/Haiti Project No. 521-A-00-99-00074-00, Managed by Centre
                               Pour la Libre Enterprise et la Democratie for the Period October 1,
                               2003 to June 30, 2004
   1-522-05-049-R   05/10/05   Financial Statement Audit of the Central American and Dominican
                               Republic Centers of Excellence for Teacher Training Program,
                               Cooperative Agreement No. 522-A-00-02-00348-00, Managed by
                               Universidad Pedagogica Nacional Francisco Morazan, for the Period
                               from September 25, 2002 to December 31, 2003
   1-520-05-050-R   05/16/05   Closeout Fund Accountability Statement Audit of the “University
                               Education to Indigenous People in UVG South and Coast and
                               Altiplane Campuses” Program, Cooperative Agreement No. 520-G-
                               00-04-00058-00, Managed by Universidad del Valle de Guatemala
                               for the Period February 27 to December 31, 2004
   1-522-05-051-R   05/25/05   Close-Out Financial Statements Audit of the Project Technical               3            QC
                               Assistance to Municipalities for the Privatization of Municipal
                               Services Process, Grant Agreement No. 522-A-00-98-00116-00,
                               Managed by the Asociacion de Municipios de Honduras, for the Year
                               Ended December 31, 2002
   1-521-05-052-R   05/25/05   Audit of the Fund Accountability Statement of the USAID/Haiti
                               Resources Under Cooperative Agreement No. 521-A-00-02-00023-
                               00, Managed by La Fondation Heritage Pour Haiti, for the Period
                               from October 1, 2003 to September 30, 2004
   1-518-05-053-R   05/25/05   Financial Statement Audit of the Strengthening Rule of Law in
                               Ecuador Project, Cooperative Agreement No. 518-A-00-02-00160-
                               00, Managed by Fundacion Hacia La Seguridad - Imperio de la Ley,
                               for the Period from October 1, 2003 to December 31, 2004
   1-520-05-054-R   05/26/05   Financial Statement Audit of the Strengthen Local Governments and
                               National Organizations that Bond with the Municipalities of Central
                               America Isthmus Countries, Grant Agreement No. LAG-A-00-99-
                               00016-00, Managed by the Federacion de Municipios del Istmo
                               Centroamericano, for the Year Ended December 31, 2003
   1-527-05-056-R   06/09/05   Financial Statement Audit of the Institute for High-Quality Health
                               Care -- Max Salud, Cooperative Agreement 527-A-00-99-00307-00,
                               for the Year Ended December 31, 2004
   1-596-05-057-R   06/09/05   Fund Accountability Statement Audit of the Project “Improved                3            QC
                               Environmental Management in the Mesoamerican Biological
                                                                                                           3            UN
                               Corridor,” USAID Project No. 596-0185, Managed by Secretaria
                               General de la Integracion Centro Americana and Comision Centro
                               Americana de Ambiente y Desarrollo, for the Period October 1, 2003
                               through September 30, 2004




                                                                                                     BU--Better Use of Funds
                                                                                                     QC--Questioned Costs
                                                                                                     UN--Unsupported Costs
                                                                                                     Note: UN is part of QC

Appendix A                                                                           April 1, 2005 — September 30, 2005

42
                              Semiannual Report to the Congress

                                                                                                             Amount of
            Report          Date of                                                                                       Type of
                                                                  Report Title                                Findings
            Number          Report                                                                                       Findings
                                                                                                               ($000s)
     1-523-05-058-R         06/16/05   Audit of the Fund Accountability Statement for the Wildﬁre               8          QC
                                       Prevention and Restoration Program, Managed by the Mexican
                                                                                                                8          UN
                                       Nature Conservation Fund, A.C., Under USAID Cooperative
                                       Agreement No. 523-A-00-98-00039-00, for the Year Ended
                                       December 31, 2003
     1-523-05-059-R         06/16/05   Financial Statement Audit of the Trust Fund Under Cooperative
                                       Agreement No. 523-4007-A-6001-00, Managed by the Mexican
                                       Nature Conservation Fund, A.C., for the Year Ended December 31,
                                       2003
     1-521-05-060-R         06/22/05   Financial Statement Audit of USAID/Haiti’s Education 2004, Project
                                       No. 521-0259, Cooperative Agreement No. 521-A-00-99-00070-00,
                                       Managed by Fondation Haitienne de L’Enseignement Prive, for the
                                       Year Ended July 31, 2003
     1-522-05-061-R         06/24/05   Close-out Financial Statement Audit of the Honduran Environmental
                                       Protection Fund Project, Cooperative Agreement No. 522-0385-
                                       A-00-3330-00, Managed by Fundacion Hondurena de Ambiente y
                                       Desarrollo, for the Period January 1, 2002 to December 31, 2003
     1-532-05-062-R         06/24/05   Audit of the Fund Accountability Statement of the Innercity Peace        18         QC
                                       and Prosperity Project Under Grant No. 532-A-00-01-00116-00,
                                       Managed by Kingston Restoration Company Limited, for the Period
                                       from March 19, 2001 to November 30, 2004
     1-517-05-063-R         06/28/05   Audit of the Fund Accountability Statement of the Service Program
                                       in Reproductive Health Activities, Agreement No. 517-G-00-00-
                                       00141-00, Managed by the Asociacion Dominicana Pro-Bienestar de
                                       la Familia Inc., for the Year Ended June 30, 2001
     1-538-05-064-R         06/24/05   Audit of the Fund Accountability Statement for the Limited Scope
                                       Sub-Grant Agreement No. 538-004, Regional Strategic Objective
                                       No. 3, “Increased Effectiveness and Fairness of the Legal Systems
                                       in the Caribbean” Managed by the Organization of Eastern
                                       Caribbean States, for the Period from July 1, 2003 to June 30, 2004
     1-520-05-065-R         07/06/05   Closeout Audit of the Fund Accountability Statement of USAID/           414         QC
                                       Guatemala Project No. 520-0413-A-00-5130-00, Managed by Centro
                                       Canadiense de Estudios y Cooperacion Internacional, for the Years
                                       Ended March 31, 2004 and 2003
     1-517-05-066-R         07/11/05   Closeout Audit of the Fund Accountability Statement of the Program
                                       Improved Basic Education Through Private Sector Sponsorship
                                       of Public Schools, Agreement No. CA-517-A-00-04-00104-00,
                                       Managed by the Fundacion Falconbridge Inc., for the Period
                                       December 3, 2003 to December 2, 2004
     1-520-05-067-R         07/19/05   Financial Statement Audit of the “Technical Support to the Small
                                       Farmer Initiative Project,” Cooperative Agreement No. 520-A-00-03-
                                       00121-00, Managed by the Fundacion Agros, for the Period July 1,
                                       2003 through June 30, 2004
     1-525-05-068-R         07/26/05   Closeout Audit of the Fund Accountability Statement of the               2          QC
                                       Hydrographic Basin of the Panama Canal Project, Under Grant
                                       Agreement No. 525-A-00-01-00016-00, Managed by the Sociedad
                                       Nacional Para el Desarrollo de Empresas y Areas Rurales, for
                                       January 1 to September 30, 2004


  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                       Appendix A

                                                                                                                                43
                      Semiannual Report to the Congress

                                                                                                       Amount of
          Report    Date of                                                                                            Type of
                                                          Report Title                                  Findings
          Number    Report                                                                                            Findings
                                                                                                         ($000s)
   1-522-05-069-R   07/25/05   Audit of the Fund Accountability Statement for the Basic Education           3            QC
                               and Skills Training Project, Component I of Grant Agreement No.
                               522-0388 and No. 522-0436, Managed by the Secretariat of Public
                               Education, for the Year Ended December 31, 2004
   1-517-05-070-R   07/26/05   Audit of the Fund Accountability Statement for the Consolidation
                               and Expansion of Opportunities for Citizen Participation and
                               Political Culture Project No. 517-A-00-03-00105-00, Managed by
                               Participacion Ciudadana, for September 1, 2003 to August 31, 2004
   1-522-05-071-R   07/29/05   Financial Statement Audit of the USAID/Honduras Municipal                   15            QC
                               Development Project, Grant Agreement No. 522-A-00-93-00264-
                                                                                                           15            UN
                               00, Managed by the Asociacion de Municipios de Honduras, for the
                               Period January 1, 2002 through September 30, 2003
   1-527-05-072-R   07/29/05   Fund Accountability Statement Audit of the Program “Increase in
                               Microﬁnance Services for the Activities of the Poor,” Cooperative
                               Agreement No. 527-A-00-02-00224-00, Managed by Consorcio
                               de Organizaciones Privadas de Promocion al Desarrollo de la
                               Micro y Pequena Empresa, for the Period from October 1, 2003 to
                               December 31, 2004
   1-522-05-073-R   08/08/05   Fund Accountability Statement Audit of the Endowment Fund,
                               Cooperative Agreement No. 522-0388-A-00-5401-00, Managed
                               by the Advisory Council for Human Resources Development of
                               Honduras, for the Year Ended December 31, 2004
   1-526-05-074-R   08/09/05   Fund Accountability Statement Audit of the Program of Mediation,             9            QC
                               Agreement No. 526-A-00-02-00073-00, Managed by Instituto de
                                                                                                            7            UN
                               Estudios Comparados en Ciencias Penales y Sociales, for the
                               Period from September 30, 2002 to December 31, 2003
   1-522-05-075-R   08/09/05   Closeout Fund Accountability Statement Audit of Technical Services
                               for Vocational Centers, Cooperative Agreement No. 522-A-00-02-
                               00346-00, Managed by the Advisory Council for Human Resources
                               Development of Honduras, for the Period from July 1, 2003 to
                               December 31, 2004
   1-519-05-076-R   08/10/05   Fund Accountability Statement Audit of the Healthy Salvadorans
                               Project, Grant Agreement No. 519-0430, Managed by the Ministry of
                               Public Health and Social Assistance, through the Project Coordinator
                               Unit, for the Year Ended December 31, 2004
   1-522-05-077-R   08/12/05   Closeout Audit of the Fund Accountability Statement of the Program
                               “Competitiveness and Exports of Non Traditional Agricultural and
                               Wood Products in Honduras” Cooperative Agreement No. 522-A-
                               00-03-00419-00, Managed by the Foundation for Investment and
                               Development for Exports for the Period from October 1, 2003 to
                               December 31, 2004
   1-527-05-078-R   08/17/05   Fund Accountability Statement and Its Reconciliation with the
                               Balance of Cash - Commodity Status Report of the PL 480 Title
                               II (Monetization) Program, Managed by Caritas del Peru, for the
                               Period from October 1, 2002 to December 31, 2003
   1-522-05-079-R   08/19/05   Fund Accountability Statement Audit of Strengthened Rule of Law             11            QC
                               and Respect for Human Rights Program, Project No. 522-0394,
                                                                                                           11            UN
                               Managed by the Public Ministry of Honduras, for the Year Ended
                               December 31, 2004

                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC

Appendix A                                                                            April 1, 2005 — September 30, 2005

44
                              Semiannual Report to the Congress

                                                                                                            Amount of
            Report          Date of                                                                                      Type of
                                                                  Report Title                               Findings
            Number          Report                                                                                      Findings
                                                                                                              ($000s)
     1-521-05-080-R         08/25/05   Financial Statement Audit for USAID/Haiti’s Resources Under             2          QC
                                       Cooperative Agreement No. 521-A-00-02-00036-00, for the Period
                                       October 1, 2003 to September 30, 2004, Managed by Fondation
                                       Haitienne de L’Environnement
     1-518-05-081-R         08/29/05   Audit of the Fund Accountability Statement of the Environmental
                                       Support Program, No. 518-0126, Managed by the Galapagos
                                       National Park, for the Year Ended December 31, 2002
     1-511-05-082-R         08/29/05   Fund Accountability Statement Audit of the Municipal Health
                                       Program of the Yungas, Cooperative Agreement No. 511-A-00-01-
                                       00058-00, Managed by SERVIR Servicios Educativos, for the Year
                                       Ending December 31, 2003
     1-511-05-083-R         08/29/05   Fund Accountability Statement Audit of the Municipal Health             36         QC
                                       Program of the Yungas, Cooperative Agreement No. 511-A-00-01-
                                                                                                               36         UN
                                       00058-00, Managed by SERVIR Servicios Educativos, for the Period
                                       April 1, 2002 to December 31, 2002
     1-518-05-084-R         08/30/05   Financial Statement Audit of Programa de Sostenibilidad Financiera
                                       y Alianzas Estrategicas for the Year Ended December 31, 2004,
                                       Undertaken by Fundacion Esquel - Ecuador
     1-518-05-085-R         08/30/05   Audit of the Fund Accountability Statement of the Environmental
                                       Support Program, No. 518-0126, Managed by the Galapagos
                                       National Park, for the Year Ended December 31, 2003
     1-511-05-086-R         09/01/05   Audit of the Fund Accountability Statement of the Sustainable
                                       Technologies Promotion Center, USAID Donation Agreement No.
                                       511-A-00-02-00282-00, Corresponding to the Period from October 1,
                                       2002 to December 31, 2003
     1-511-05-087-R         09/07/05   Financial Statement Audit of the “Project to Support Emerging           3          QC
                                       Markets for Certiﬁed Forest Products,” Cooperative Agreement
                                       No. 511-A-00-02-00206-00, Managed by the Centro Amazonico
                                       de Desarrollo Forestal, for the Period from September 20, 2002 to
                                       December 31, 2003
     1-527-05-088-R         09/08/05   Financial Audit to the USAID Bilateral Grant Agreement No. 527-         18         QC
                                       0375 and Its Amendments “Coverage with Quality Project” Ministry
                                       of Health - Program for Administration of Management Agreements
                                       - PAAG 2003 Period
     1-527-05-089-R         09/19/05   Audit of the Fund Accountability Statement of the Institutional
                                       Strengthening of the Ofﬁce of the Ombudsman for the Supervision
                                       of State Reform and Promotion of Citizen Vigilance, Bilateral
                                       Agreement No. 527-0402-OMB-02, Managed by the Ofﬁce of the
                                       Ombudsman, for the Period from September 23, 2002 to December
                                       31, 2003
     1-511-05-090-R         09/19/05   Financial Statement Audit of the Program for the Communication
                                       Strategy to Support Health Organizations in the Public and Private
                                       Sectors, Cooperative Agreement No. 511-A-00-01-00067-00,
                                       Managed by the Centro Para Programas de Comunicacion Bolivia,
                                       for the Year Ended December 31, 2004




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                      Appendix A

                                                                                                                                 45
                      Semiannual Report to the Congress

                                                                                                        Amount of
          Report    Date of                                                                                             Type of
                                                           Report Title                                  Findings
          Number    Report                                                                                             Findings
                                                                                                          ($000s)
   1-522-05-091-R   09/19/05   Financial Statement Audit of USAID/Honduras Resources Managed
                               by the Honduran Social Investment Fund/Directorate of Major
                               Infrastructure, Under Municipal Development Project No. 522-0340
                               (Child Survival Program) for the Period January 1 to December 31,
                               2004
   1-518-05-092-R   09/23/05   Closeout Audit of the Fund Accountability Statement of the
                               Environmental Support Program, No. 518-0126, Managed by the
                               Galapagos National Park, for the Year Ended December 31, 2004
   1-521-05-093-R   09/21/05   Fund Accountability Statement Audit of USAID/Haiti’s Resources               49            QC
                               Under Cooperative Agreement No. 521-A-00-02-00025-00,
                                                                                                            49            UN
                               Managed by Association des Oeuvres Privees de Sante, for the Year
                               Ended December 31, 2004
   4-656-05-008-N   04/04/05   Audit of USAID/Mozambique’s Resources Managed by the                        354            QC
                               Foundation for Community Development, Under Cooperative
                                                                                                             9            UN
                               Agreement No. 656-A-00-01-00077-00 for the Period October 1,
                               2002 to September 30, 2003
   4-663-05-009-N   07/07/05   Audit of USAID’s Resources Managed by the Relief Society of                 356            QC
                               Tigray, Under Agreement Nos. FFP-A-00-99-00095-00, 663-A-00-
                                                                                                           356            UN
                               03-00352-00, 663-A-00-02-00366, 663-A-00-03-00354-00, FFP-A-
                               00-03-00049-00, and FFP-A-00-03-00004-00, for the Period January
                               1, to December 31, 2003
   4-674-05-010-N   07/28/05   Audit of the Wits Health Consortium Under USAID Bilateral Grant            3,316           QC
                               Agreement No. 674-0320-G-00-5053-10, Project Implementation
                                                                                                          2,880           UN
                               Letters 10, 14, 15, 16 and 17 for the Period January 1, 2002 to
                               December 31, 2003
   4-663-05-014-R   04/15/05   Audit of GOAL Ethiopia Under Grant Agreement No. 663-G-00-02-               105            QC
                               00383-00 for the Period September 16, 2002 to December 31, 2002
                                                                                                           105            UN
   4-617-05-015-R   05/13/05   Audit of the Environmental Conservation Trust of Uganda Under
                               USAID Cooperative Agreement No. 617-A-00-01-00002-00 for the
                               Year Ended December 31, 2004
   4-674-05-016-R   06/10/05   Closeout Audit of People’s Housing Partnership Trust Under USAID           3,010           QC
                               Cooperative Agreement No. 674-0312-A-98-00045 for the Period
                                                                                                             2            UN
                               March 1, 1998 to March 31, 2002
   4-674-05-017-R   06/23/05   Audit of Business Against Crime - South Africa Under USAID                  594            QC
                               Cooperative Agreement No. 674-A-00-02-00012-00 for the Period
                                                                                                           594            UN
                               June 1, 2003 to May 31, 2004
   4-674-05-018-R   06/23/05   Audit of Right to Care Under USAID Cooperative Agreement No.                500            QC
                               674-A-00-02-00018-00 for the Period January 1 to December 31,
                                                                                                           489            UN
                               2003
   4-617-05-019-R   06/29/05   Audit of International Service Volunteers Association Under USAID
                               Agreement Nos. 617-G-00-99-00013-00, 617-G-00-01-00015-00,
                               617-A-00-02-00010-00 and HAD-G-00-02-00204-00 for the Period
                               January 1 to December 31, 2002
   4-674-05-020-R   08/04/05   Audit of the Department of Justice and Constitutional Development           733            QC
                               Under USAID Bilateral Agreement No. 674-0301-G-00-4182, Project
                                                                                                           557            UN
                               Implementation Letters 10, 11, 14, 15, 16, 18, 20, 21, 23, 24, 25 and
                               28 for the Period April 1, 1999 to March 31, 2000


                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC

Appendix A                                                                             April 1, 2005 — September 30, 2005

46
                              Semiannual Report to the Congress

                                                                                                              Amount of
            Report          Date of                                                                                        Type of
                                                                  Report Title                                 Findings
            Number          Report                                                                                        Findings
                                                                                                                ($000s)
     4-674-05-021-R         08/04/05   Audit of the Department of Justice and Constitutional Development        227         QC
                                       Under USAID Bilateral Agreement No. 674-0301-G-00-4182, Project
                                                                                                                183         UN
                                       Implementation Letters 10, 14, 15, 18, 20, 21, 23, 24, 25, 28 and 31
                                       for the Period April 1, 2000 to March 31, 2001
     4-674-05-022-R         08/05/05   Audit of the Department of Justice and Constitutional Development         68         QC
                                       Under USAID Bilateral Agreement No. 674-0301-G-00-4182, Project
                                                                                                                 39         UN
                                       Implementation Letters 14, 23, 31, 33 and 39 for the Period April 1,
                                       2001 to March 31, 2002
     4-663-05-023-R         08/15/05   Closeout Audit of the Southern Nations Nationalities and Peoples         646         QC
                                       Regional Education Bureau Under USAID Grant Agreement No.
                                                                                                                192         UN
                                       663-0015, Project Implementation Letter No. 28 and USAID Grant
                                       Agreement No. 663-0090, Implementation Letter No. 4 for the Period
                                       July 8, 2001 to December 31, 2002
     4-623-05-024-R         09/20/05   Audit of the Centre for African Family Studies Under USAID                1          QC
                                       Cooperative Agreement Nos. 623-0005-A-00-4143-00 (Closeout)
                                                                                                                264         BU
                                       and 623-A-00-02-00107-00 for the Period January 1 to December
                                       31, 2003
     5-367-05-007-N         05/09/05   Financial Audit of the Department of Health Services, Government of       85         QC
                                       Nepal, Under USAID Strategic Objective Grant Agreement, Project
                                                                                                                 20         UN
                                       No. 367-02A1 Implementation Letter No. 35, for the Period from July
                                       16, 2001 to July 15, 2002
     5-492-05-007-D         06/06/05   Financial Audit of the Program Titled “Private Sector Family and          89         QC
                                       Reproductive Health System,” USAID/Philippines Cooperative
                                                                                                                 20         UN
                                       Agreement No. 492-A-00-01-00020-00, Managed by FriendlyCare
                                       Foundation, Inc., for the Period from January 1, 2003 to December
                                       31, 2003
     5-386-05-017-R         04/20/05   Financial Audit of the Program for the Advancement of Commercial
                                       Technology, Child Reproductive Health, USAID/India Project No.
                                       386-0496, Managed by the ICICI Bank Limited, for the Period from
                                       April 1, 2003 to March 31, 2004
     5-386-05-018-R         04/21/05   Financial Audit of the Trade in Environmental Services and
                                       Technologies, Clean Technology Initiative, USAID/India Project No.
                                       386-0530, Managed by the ICICI Bank Limited, for the Period from
                                       April 1, 2003 to March 31, 2004
     5-367-05-019-R         05/20/05   Close-out Audit of USAID Cooperative Agreement No. 367-A-00-02-
                                       00120-00, Managed by the Center for Victims of Torture, Nepal, for
                                       the Period from January 1, 2004 to December 31, 2004
     5-492-05-020-R         05/20/05   Financial Audit of the Vehicle Emission Control in Metro Manila,
                                       USAID/Philippines Cooperative Agreement No. 492-A-00-02-00013-
                                       00, Managed by the Inﬁnite Progressions Corporation, for the Period
                                       from August 15, 2002 to August 15, 2004
     5-497-05-021-R         05/27/05   Financial Audits of the Program in Development Public Television          14         QC
                                       in Indonesia’s New Democratic Environment, USAID/Indonesia
                                                                                                                 1          UN
                                       Grant Agreement No. AID 497-G-00-00-00046-00 (Close-out) for the
                                       Period from January 1, 2003 to August 9, 2003, and the Program of
                                       Public Empowerment and Media Monitoring for a Peaceful Election
                                       in 2004, USAID/Indonesia Cooperative Agreement No. AID 497-A-
                                       00-03-00029-00 for the Period from August 21, 2003 to December
                                       31, 2003; Managed by the Yayasan Sains Estetika dan Teknologi

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                        Appendix A

                                                                                                                                47
                      Semiannual Report to the Congress

                                                                                                       Amount of
          Report    Date of                                                                                            Type of
                                                           Report Title                                 Findings
          Number    Report                                                                                            Findings
                                                                                                         ($000s)
   5-497-05-022-R   06/30/05   Financial Audit of the Program Titled “Stengthening Civil Society            4            QC
                               in Aceh and Its Contribution to Promote Peaceful 2004 Elections,”
                                                                                                            1            UN
                               USAID/Indonesia Cooperative Agreement No. AID 497-A-00-04-
                               00004-00, Managed by the YAPPIKA Aliansi Masyarakat Sipil untuk
                               Demokrasi, for the Period from December 30, 2003 to December 31,
                               2004
   5-497-05-023-R   07/12/05   Financial Audit of the Programs Titled “Democracy Study and                109            QC
                               Development,” USAID/Indonesia Cooperative Agreement No. 497-A-
                                                                                                           31            UN
                               00-00-00061-00 for the Period from January 1, 2003 to September
                               30, 2003 (Close-out Audit), and “Enhancing People’s Political
                               Participation to Consolidate Democracy,” Cooperative Agreement
                               No. 497-A-00-03-00040-00 for the Period from September 30,
                               2003 to December 31, 2003; Managed by the Lembaga Penelitian,
                               Pendidikan dan Penerangan Ekonomi dan Sosial
   5-492-05-024-R   07/22/05   Closeout Audit of the Trade and Investment Policy Analysis and               4            QC
                               Advocacy Support Project - Advocacy for Trade and Investment
                               Liberalization, USAID/Philippines Cooperative Agreement No.
                               AID-492-A-00-00-00012-00, Managed by the Philippine Exporters
                               Confederation, Inc., for the Period from January 1, 2004 to
                               September 30, 2004
   5-386-05-025-R   07/22/05   Financial Audit of the AIDS Prevention and Control Project, USAID/         132            QC
                               India Grant Agreement No. 386-0525, Managed by the Voluntary
                                                                                                            2            UN
                               Health Services, for the Period from April 1, 2003 to March 31, 2004
   5-367-05-026-R   07/25/05   Financial Audit of the Kathmandu Valley Earthquake Risk                     14            QC
                               Management Action Plan Implementation Project, USAID/Nepal
                                                                                                            4            UN
                               Project No. 367-G-00-00-0080-00, Managed by the National Society
                               for Earthquake Technology-Nepal, for the Period from October 1,
                               2003 to September 30, 2004
   5-386-05-027-R   08/09/05   Closeout Audit of the Financial Institution’s Reform and Expansion          112           QC
                               Project, USAID Grant Agreement No. AID-386-A-00-99-00075-00,
                                                                                                           112           UN
                               Managed by the National Institute of Urban Affairs, for the Period
                               from April 1, 2003 to September 30, 2003
   5-497-05-028-R   08/09/05   Financial Audit of the Programs Titled “Conservation of the Greater         35            QC
                               Sebangau Water Catchment Area in Central Kalimantan, Indonesia,”
                                                                                                            3            UN
                               USAID/Indonesia Grant Agreement No. 497-G-00-01-00059-00 for
                               the Period from July 1, 2003 to September 30, 2003 (closeout audit)
                               and “Promoting Forest Certiﬁcation and Combating Illegal Logging in
                               Indonesia,” Cooperative Agreement No. 497-A-00-02-00060-00 for
                               the Period from July 1, 2003 to June 30, 2004; Managed by Yayasan
                               WWF Indonesia
   5-497-05-030-R   08/31/05   Financial Audit of the Indonesian Biodiversity Foundation Project,
                               Cooperative Agreement No. AID-497-0384-A-00-5011-00, Managed
                               by Yayasan Keanekaragaman Hayati Indonesia, Endowment
                               Income Fund for the Period from January 1, 2004 to December 31,
                               2004
   5-367-05-031-R   09/06/05   Financial Audit of the Developing Regional Cooperation for Flood
                               Information Exchange Program, USAID/Nepal Cooperative
                               Agreement No. 367-A00-02-00024-00, Managed by the International
                               Centre for Integrated Mountain Development, for the Period from
                               January 24, 2002 to December 31, 2003

                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC

Appendix A                                                                            April 1, 2005 — September 30, 2005

48
                              Semiannual Report to the Congress

                                                                                                             Amount of
            Report          Date of                                                                                       Type of
                                                                   Report Title                               Findings
            Number          Report                                                                                       Findings
                                                                                                               ($000s)
     5-497-05-032-R         09/20/05   Financial Audit of USAID/Indonesia Cooperative Agreement                 15         QC
                                       No. 497-A-00-02-00014-00, Managed by Yayasan Kelompok
                                                                                                                14         UN
                                       Masyarakat Pengelola Sumber Daya Alam (Yayasan KEMALA), for
                                       the Period from January 1, 2004 to December 31, 2004
     6-278-05-009-R         06/20/05   Audit of the Royal Society for the Conservation of Nature, Socio-        70         QC
                                       Economic Development for Nature Conservation, USAID Agreement
                                       No. 278-A-00-00-00212-00, for the Year Ended May 31, 2003
     6-263-05-010-R         07/13/05   Financial Audit of USAID Resources Managed by the Ministry of
                                       Health and Population, Healthy Mother/Healthy Child Project Nos.
                                       263-0242 and 263-0287, Implementation Letter No. Four, for the
                                       Year Ended June 30, 2004
     6-263-05-011-R         07/14/05   Close-out Audit of the Egyptian Center for Economic Studies,
                                       Cooperative Agreement No. 263-A-00-93-00104, Under USAID/
                                       Egypt Grant Agreement No. 263-0230/228 and Endowment
                                       Agreement No. 263-A-00-01-00023-00, for the Period from January
                                       1, 2003 to June 30, 2004
     6-263-05-012-R         07/14/05   Close-out Audit of USAID Resources Managed by the Egyptian
                                       Exporters Association, Cooperative Agreement No. 263-A-00-02-
                                       000-31-00, for the Period from January 1, 2004 to December 31,
                                       2004
     6-263-05-013-R         08/30/05   Financial Close-Out Audit of the Ministry of Health and Population,      5          QC
                                       Systems Development Project, USAID Grant Agreement No. 263-
                                       0267, Implementation Letter No. 4, for the Period July 1, 2002,
                                       through September 30, 2003
     6-263-05-014-R         09/12/05   Audit of USAID Resources Managed by the Horticultural Exporters
                                       Improvement Association, Grant Agreement No. 263-G-00-99-
                                       00010-00, for the Period from January 1, 2003 to December 31,
                                       2003
     6-263-05-015-R         09/19/05   Close-out Audit of USAID Resources Managed by the State
                                       Information Service/Information, Education, and Communication
                                       Center Under Grant Agreement Number 263-0267, Implementation
                                       Letter Number Five, for the Period from January 1, 2003 to
                                       September 30, 2003
     6-263-05-023-N         04/17/05   Audit of USAID Resources Managed by Credit Guarantee Company,
                                       Under Strategic Objective No. 16, Project No. 263-0228, for the
                                       Period from September 13, 1999 to December 31, 2002
     6-294-05-032-N         05/31/05   Examination Procedures Related to Resources Provided to the              58         QC
                                       Palestinian Authority Through the Ministry of Finance Under the
                                       Cash Transfer Grant Agreement Dated July 16, 2003, “USAID
                                       Activity No. 294-W-008” for the Period from July 16, 2003 to
                                       September 30, 2004
     6-263-05-033-N         06/15/05   Financial Audit of the Government of Egypt Special Accounts,
                                       Related to USAID/Egypt’s Private Commodity Import Program and
                                       Cash Transfers, for the Period from July 1, 2002 to June 30, 2003
     6-294-05-034-N         06/19/05   Audit of Fund Accountability Statement of USAID Resources                5          QC
                                       Managed by the Palestinian Academic Society for the Study of
                                       International Affairs Under Award No. 294-A-00-97-00025-00, “Civil
                                       Society Empowerment through Training and Skills Development” for
                                       the Period from July 1, 2000 to July 31, 2004

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                       Appendix A

                                                                                                                                49
                      Semiannual Report to the Congress

                                                                                                       Amount of
          Report    Date of                                                                                            Type of
                                                            Report Title                                Findings
          Number    Report                                                                                            Findings
                                                                                                         ($000s)
   6-294-05-035-N   09/20/05   Examination Procedures Related to Resources Provided to the
                               Palestinian Authority Through the Ministry of Finance Under the
                               Cash Transfer Grant Agreement Dated December 27, 2004, for the
                               Period from December 27, 2004 to March 31, 2005
   7-680-05-001-N   05/31/05   Close-out Audit of USAID Resources Managed by Songhai, Benin
                               Under Grant No. 680-G-00-02-00232-00
   7-624-05-002-N   06/30/05   Consolidated Audit of Donor Resources Granted to the Permanent               4            QC
                               Interstate Committee for Drought Control in the Sahel for the Period
                                                                                                            3            UN
                               January 1, 2003 to December 31, 2003
   7-688-05-006-R   06/28/05   Audit of Local Currency Expenses Incurred by the Administrative             24            QC
                               and Financial Directorate of the Malian Ministry of Health Under
                                                                                                            8            UN
                               the Youth Strategic Objective Project No. 688-0272 for the Period
                               January 1, 2001 to September 30, 2003
   B-114-05-001-N   06/28/05   Audit of USAID/Caucasus Resources Managed by Mercy Corps                    40            QC
                               International
                                                                                                           40            UN
   B-000-05-023-R   04/15/05   Audit of Solidarites in Paris, France, Under Multiple USAID                  9            QC
                               Agreements for the Year Ended December 31, 2003
   B-168-05-024-R   05/17/05   Audit of Centres for Civic Initiatives of Bosnia-Herzegovina for the
                               Year Ended January 31, 2003
   B-115-05-025-R   06/13/05   Audit of Soros Foundation Kazakhstan’s USAID Grant No. 115-G-
                               00-00-00001 and Cooperative Agreement Nos. 115-A-00-02-00002
                               and 122-A-00-02-00042 for the Year Ended December 31, 2003
   B-183-05-026-R   06/15/05   Audit of the Foundation for Local Government Reform Under USAID
                               Grant No. 183-G-00-01-00103-00 for the Year Ended September 30,
                               2004
   B-119-05-027-R   06/16/05   Audit of the Tajik Branch of Open Society Institute--Assistance
                               Foundation Under Three USAID Grants and One Cooperative
                               Agreement for the Year Ended December 31, 2003
   B-111-05-028-R   06/21/05   Audit of the Institute of Chartered Accountants of Scotland Under
                               USAID Cooperative Agreement Nos. 111-A-00-02-00034-00 for the
                               Year Ended December 31, 2004
   B-114-05-029-R   06/21/05   Audit of Horizonti of Tbilisi, Georgia Under USAID Cooperative
                               Agreement Nos. 114-A-00-03-00190-00 and 114-A-00-01-00199-00
                               for the Year Ended December 31, 2004
   B-000-05-030-R   07/28/05   Audit of Save the Children Fund Under 35 USAID Agreements for
                               the Three-Year Period Ended March 31, 2002
   B-182-05-031-R   07/28/05   Audit of Terres des Hommes Albania Under USAID Cooperative
                               Agreement No. 182-A-00-03-00103-00 for the Period June 1, 2003
                               to December 31, 2004
   B-000-05-032-R   08/15/05   Audit of Norwegian People’s Aid Under Three USAID Agreements              1,352           QC
                               for the Year Ended December 31, 2003
                                                                                                         1,352           UN




                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC

Appendix A                                                                              April 1, 2005 — September 30, 2005

50
                              Semiannual Report to the Congress

                                                                                                                Amount of
            Report          Date of                                                                                          Type of
                                                                    Report Title                                 Findings
            Number          Report                                                                                          Findings
                                                                                                                  ($000s)
     B-000-05-033-R         08/15/05   Audit of Norwegian People’s Aid Under USAID Grant Agreement                232         QC
                                       AOT-G-00-00-00126-00 for the 38-Month Period Ended May 31,
                                                                                                                  228         UN
                                       2003


     B-118-05-034-R         09/06/05   Audit of the Moscow School of Political Studies Under USAID
                                       Cooperative Agreement No. 118-A-00-03-00090 for the Period from
                                       August 1, 2003 through December 31, 2004


                                               —U.S.-BASED GRANTEES—


     0-000-05-003-T         04/11/05   Review of Audit Report for CARE USA, for the Fiscal Year Ending
                                       June 30, 2003
     0-000-05-004-T         05/24/05   Review of the Audit Report for World Vision, Inc. for Fiscal Year
                                       Ending September 30, 2003
     0-000-05-010-T         04/11/05   Review of Audit Report for Counterpart International, Inc., for the
                                       Fiscal Year Ending September 30, 2003
     0-000-05-011-T         04/11/05   Review of Audit Report for Save the Children Federation, Inc., for
                                       the Fiscal Year Ending September 30, 2003
     0-000-05-012-T         04/11/05   Review of the Audit Report for The Carter Center, Inc., for the Fiscal
                                       Year Ending August 31, 2003
     0-000-05-015-T         04/11/05   Review of the Audit Report for ACDI/VOCA, for the Fiscal Year
                                       Ending December 31, 2003
     0-000-05-016-T         04/11/05   Review of the Audit Report for Health Volunteers Overseas, Inc., for
                                       the Fiscal Year Ending December 31, 2003
     0-000-05-019-T         04/11/05   Review of the Audit Report for Business for Social Responsibility, for
                                       the Fiscal Year Ending December 31, 2003
     0-000-05-022-T         04/06/05   Review of the Audit Report for Pathﬁnder International, for the Fiscal
                                       Year Ending June 30, 2003
     0-000-05-036-T         04/11/05   Review of the Audit Report for Shelter for Life International, for the
                                       Fiscal Year Ending December 31, 2003
     0-000-05-041-T         04/11/05   Review of the Audit Report for Junior Achievement International, for
                                       the Fiscal Year Ending June 30, 2003
     0-000-05-074-D         04/11/05   Altarum Institute, Report on Agreed Upon Procedures for USAID
                                       Incurred Costs for Award No. 121-A-00-98-00615-00 and 121-A-00-
                                       01-00018-00
     5-442-05-008-D         09/12/05   Report on the Audit of The Asia Foundation’s Sub-Grantee
                                       System in Cambodia as of February 10, 2005, USAID/Cambodia
                                       Cooperative Agreement No. 442-A-00-96-00509-00
     5-492-05-029-R         08/17/05   Financial Audit of the Alliance for Mindanao Off-Grid Renewable             7          QC
                                       Energy Program, USAID/Philippines Cooperative Agreement No.
                                                                                                                   7          UN
                                       492-A-00-02-00006-00, Managed by the Winrock International
                                       Institute for Agricultural Development Philippines Branch, for the
                                       Period from February 22, 2002 to July 31, 2004




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                          Appendix A

                                                                                                                                 51
                      Semiannual Report to the Congress

                                                                                                        Amount of
          Report    Date of                                                                                             Type of
                                                           Report Title                                  Findings
          Number    Report                                                                                             Findings
                                                                                                          ($000s)
   6-294-05-025-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    16            QC
                               Managed by Cooperative Housing Foundation Under Award Number
                               294-A-00-02-00201-00, “Emergency Financial Services Program in
                               the West Bank and Gaza,” for the Period from December 4, 2001 to
                               December 31, 2002
   6-294-05-026-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    14            QC
                               Managed by Cooperative Housing Foundation Under Award Number
                                                                                                             1            UN
                               294-A-00-99-00157-00, “Community and Rural Service Program,”
                               for the Period from September 30, 1999 to September 30, 2002
   6-294-05-027-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    21            QC
                               Managed by Cooperative Housing Foundation Under Award Number
                               294-A-00-01-00116-00, “Emergency Employment Generation
                               Program,” for the Period from June 11, 2001 to May 29, 2003
   6-294-05-028-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    17            QC
                               Managed by Cooperative Housing Foundation Under Award
                               Number 294-A-00-02-00232-00, “Palestinian Help and Outreach for
                               Empowering Neighborhoods and Increasing Excellence Program
                               (Phoenix),” for the Period from September 13, 2002 to July 31, 2003
   6-294-05-029-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    55            QC
                               Managed by Cooperative Housing Foundation Under Award Number
                               294-A-00-02-00218-00, “Palestinian Environmental Improvement/
                               Vocation Training Program,” for the Period from July 19, 2002 to July
                               31, 2003
   6-294-05-030-N   05/17/05   Audit of Fund Accountability Statement of USAID Resources                    26            QC
                               Managed by Cooperative Housing Foundation Under Award Number
                               294-A-00-00-00069-00, “Village Service Program for Southern
                               Gaza,” for the Period from September 30, 2000 to September 30,
                               2002
   6-294-05-037-N   09/12/05   Audit of USAID Resources Managed by Youth Project Developing
                               Council, Sub-grant No. SC/VSP 001 from Save the Children
                               Federation Under Award No. 294-A-00-00-00073-00 for the Period
                               from May 1, 2001 to September 30, 2003
   E-267-05-009-D   04/21/05   Audit of Costs Incurred by Agricultural Cooperative Development               9            QC
                               International/Volunteers Overseas Cooperative Assistance Under
                               USAID Cooperative Agreement No. AFP-A-00-03-00003-00 from
                               May 16, 2003 through July 31, 2004
   E-267-05-018-D   09/22/05   Audit of Costs Incurred by Save the Children Federation, Inc. Under
                               Cooperative Agreement No. AFP-A-00-03-00005-00 from May 16,
                               2003 to July 31, 2004


                                   —U.S.-BASED CONTRACTORS—


   0-000-05-064-D   04/07/05   Metcalf & Eddy, Inc., Report on Audit of CAS Compliance, Floor
                               Check and Purchase Existence for Fiscal Year 2004
   0-000-05-066-D   04/11/05   Camp, Dresser & McKee International, Report on Audit of Fiscal
                               Year 2001 and 2002 Incurred Costs




                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC

Appendix A                                                                             April 1, 2005 — September 30, 2005

52
                              Semiannual Report to the Congress

                                                                                                                Amount of
            Report          Date of                                                                                          Type of
                                                                   Report Title                                  Findings
            Number          Report                                                                                          Findings
                                                                                                                  ($000s)
     0-000-05-067-D         04/11/05   Camp, Dresser & McKee International, Report on Noncompliance
                                       with Cost Accounting Standard 404
     0-000-05-068-D         04/11/05   Montgomery Watson Harza Energy and Infrastructure, Report on
                                       Audit of Fiscal Year 2001 Incurred Costs
     0-000-05-070-D         04/11/05   EWA Information & Infrastructure Technologies, Inc., Report on
                                       Review of Fiscal Year 2002 Incurred Costs
     0-000-05-071-D         04/11/05   Black & Veatch International, Report on Audit of Fiscal Year 2000
                                       Incurred Costs
     0-000-05-072-D         04/11/05   The Futures Group International, Report on Application of Agreed
                                       Upon Procedures
     0-000-05-073-D         04/11/05   Metcalf & Eddy, Inc., Report on Audit of CAS 418 Compliance
     0-000-05-075-D         04/11/05   DPK Consulting, Report on Audit of Calendar Years 2000, 2001 and
                                       2002 Incurred Costs
     0-000-05-076-D         04/11/05   LTG Associates, Inc., Report on Audit of Fiscal Year 2002 Incurred
                                       Costs
     0-000-05-077-D         04/11/05   Parsons Infrastructure & Technology Group, Inc., Report on Audit of
                                       Fiscal Year 2002 Incurred Costs
     0-000-05-078-D         04/11/05   Geneva Global, Inc., Report on Pre-Award Survey of Prospective
                                       Contractor Accounting System
     0-000-05-079-D         04/21/05   CH2M HILL International Services, Inc., Report on Audit of Fiscal           15         QC
                                       Year 2001 Incurred Costs
     0-000-05-080-D         05/26/05   CH2M Hill International Services, Inc., Report on Audit of Fiscal Year     949         QC
                                       2002 Incurred Costs
     0-000-05-081-D         05/26/05   Juarez and Associates, Inc., Report on Audit of Calendar Year 2002
                                       Incurred Costs
     0-000-05-083-D         09/13/05   Louis Berger International, Inc., Report on Audit of Fiscal Year 1999      827         QC
                                       Incurred Costs
     0-000-05-084-D         07/12/05   Juarez & Associates, Inc., Report on Audit of Fiscal Year 2003
                                       Incurred Costs
     0-000-05-085-D         09/12/05   The Recovery Group, Report on Audit of Fiscal Year 1999 and 2000            20         QC
                                       Incurred Costs
     0-000-05-086-D         09/13/05   Metcalf & Eddy, Inc, Report on Audit of Fiscal Year 2003 Incurred
                                       Costs
     0-000-05-087-D         09/12/05   Carana Corporation, Report on Audit of Fiscal Year 1999 Incurred
                                       Costs
     0-000-05-088-D         09/12/05   Carana Corporation, Report on Audit of Fiscal Year 2000 Incurred
                                       Costs
     0-000-05-089-D         09/12/05   Sigma One Corporation, Report on Fiscal Year 2005 Labor Floor
                                       Check Evaluation
     0-000-05-090-D         09/13/05   Carana Corporation, Report on Audit of Fiscal Year 1998 Incurred
                                       Costs
     0-000-05-091-D         09/13/05   The Louis Berger Group, Inc. - International, Report on Fiscal Year
                                       2005 Labor Floor Check
     0-000-05-092-D         09/12/05   Associates in Rural Development, Inc., Report on Audit of Fiscal
                                       Year 2002 Incurred Costs

  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                          Appendix A

                                                                                                                                 53
                      Semiannual Report to the Congress

                                                                                                        Amount of
          Report    Date of                                                                                             Type of
                                                           Report Title                                  Findings
          Number    Report                                                                                             Findings
                                                                                                          ($000s)
   0-000-05-093-D   09/13/05   Metcalf & Eddy, Inc., Report on Audit of Fiscal Year 2005 Labor
                               Floor Check
   0-000-05-094-D   09/13/05   General Dynamics Network Systems, Inc., Services Organization,
                               Report on Audit of Fiscal Year 2002 Incurred Costs
   0-000-05-096-D   09/21/05   The Futures Group International, Report on Application of Agreed
                               Upon Procedures, Prime Contract No. 690-C-00-02-0001-00 in
                               Zimbabwe
   0-000-05-097-D   09/21/05   Sigma One Corporation, Report on Audit of Fiscal Year 2001
                               Incurred Costs
   5-306-05-006-D   04/19/05   Audit of Costs Incurred in the United States by the Louis Berger           1,103           QC
                               Group, Inc. to Implement the Rehabilitation of Economic Facilities
                                                                                                           318            UN
                               and Services Program, USAID/Afghanistan Contract No. 306-C-00-
                               02-00500-00, for the Period from October 1, 2003 to June 30, 2004
   5-306-05-008-N   06/30/05   Financial Audit of Local Costs Incurred by the Louis Berger Group,
                               Inc. to Implement the Rehabilitation of Economic Facilities and
                               Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
                               00500-00, for the Period from January 1, 2005 to March 31, 2005,
                               Including Contract Line Item No. 2 Costs for the Period from April 1,
                               2004 to June 30, 2004
   5-306-05-009-N   08/29/05   Financial Audit of Local Costs Incurred by the Louis Berger Group,
                               Inc. to Implement the Rehabilitation of Economic Facilities and
                               Services Program, USAID/Afghanistan Contract No. 306-C-00-
                               02-00500-00, for the Period from April 1, 2005 to June 30, 2005,
                               Including Contract Line Item No. 2 Costs for the Period from July 1,
                               2004 to June 30, 2005
   6-294-05-024-N   04/18/05   Audit of USAID Resources Managed by Associates in Rural                       1            QC
                               Development Under Award No. 294-C-00-99-00156-00, Strengthen
                                                                                                             1            UN
                               the Capability of the Palestinian Legislative Council, for the Period
                               from October 1, 2001 to September 30, 2002
   6-263-05-031-N   05/09/05   Financial Audit of Locally Incurred Costs Under Contract No. PCE-           241            QC
                               I-00-98-00017-00, Task Order No. 845, PricewaterhouseCoopers/
                               IBM, Privatization Implementation Project, for the Period October 1,
                               2002, through December 31, 2003
   6-294-05-036-N   09/20/05   Audit of the Fund Accountability Statement of USAID Resources                20            QC
                               Managed by Financial Markets International Under Contract No.
                               PCE-I-00-99-00010-00 “Capital Markets Development Initiative
                               Program” for the Period from July 5, 2000 to September 30, 2002
   6-294-05-038-N   09/20/05   Audit of USAID Resources Managed by Development Alternatives,                11            QC
                               Inc. Under Contract No. 294-C-00-99-00060-00 for the Period from
                               September 1, 2002 to August 31, 2004
   6-294-05-039-N   09/21/05   Audit of the Fund Accountability Statement of USAID Resources
                               Managed by Development Alternatives, Inc. Under Contract No.
                               LAG-I-11-99-00017-00, “Gaza Desalinization Plant,” for the Period
                               from December 18, 2001 to September 17, 2004
   E-267-05-010-D   04/28/05   Audit of Skylink Air and Logistical Support Inc.’s Labor Systems and
                               Controls Under Contract No. DFD-C-00-03-00026-00 Conducted on
                               December 28, 2004 and January 13, 2005



                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC

Appendix A                                                                              April 1, 2005 — September 30, 2005

54
                              Semiannual Report to the Congress

                                                                                                                Amount of
            Report          Date of                                                                                          Type of
                                                                   Report Title                                  Findings
            Number          Report                                                                                          Findings
                                                                                                                  ($000s)
     E-267-05-011-D         05/15/05   Audit of Costs Billed by Research Triangle Institute Under Contract         418        QC
                                       No. EDG-C-00-03-00010-00 for the Period of March 26, 2004
                                                                                                                   87         UN
                                       through September 30, 2004
     E-267-05-012-D         05/17/05   Audit of Costs Billed by Creative Associates International, Inc. Under      37         QC
                                       Contract No. EDG-C-00-03-00011-00 from March 1, 2004 through
                                                                                                                    2         UN
                                       August 31, 2004
     E-267-05-013-D         06/14/05   Audit of Costs Incurred and Billed to USAID by BearingPoint, Inc.         13,332       QC
                                       Under USAID Contract No. RAN-C-00-03-00043-00, April 1, 2004
                                                                                                                 12,892       UN
                                       through September 30, 2004
     E-267-05-014-D         06/16/05   Audit of Costs Incurred and Billed by the International Resources
                                       Group from April 1, 2004 through May 4, 2004 Under Contract No.
                                       EMT-C-00-03-00007-00, and from May 4, 2004 through October 31,
                                       2004 Under Contract No. 517-C-00-04-00106-00
     E-267-05-015-D         06/16/05   Audit of Costs Incurred by Bechtel National Inc. from March 1, 2004         118        QC
                                       to September 30, 2004 Under Contract No. EEE-C-00-03-00018-00
                                       and from January 5, 2004 to September 30, 2004 Under Contract
                                       No. SPU-C-00-04-00001-00
     E-267-05-016-D         06/27/05   Audit of Costs Incurred and Billed by Abt Associates, Inc. from April       13         QC
                                       1, 2004 through September 24, 2004, Under Contract No. RAN-C-
                                       00-03-00010-00
     E-267-05-017-D         06/27/05   Audit of SkyLink Air and Logistic Support (USA), Inc. Costs for the         301        QC
                                       Period March 1, 2004 through September 30, 2004, Under USAID
                                                                                                                   17         UN
                                       Contract No. DFD-C-00-03-00026-00
     E-267-05-019-D         09/23/05   Audit of Material and Services Procured by Bechtel National, Inc.
                                       Under Contract No. EEE-C-00-03-00018-00 and SPU-C-00-04-
                                       00001-00 Between January and February 2005
     E-267-05-020-D         09/22/05   Audit of Costs Incurred by Siemens Westinghouse Under
                                       Subcontract No. 24910-30N-ESL-MG00-001 and Subcontract No.
                                       24910-30B-ESD-MGSO-013 from Inception Until September 30,
                                       2004




                                       USAID Miscellaneous Reports


                                                                                                                Amount of
           Report           Date of                                                                                          Type of
                                                                   Report Title                                  Findings
           Number           Report                                                                                          Findings
                                                                                                                  ($000s)


                                           —QUALITY CONTROL REVIEWS—


     0-000-05-004-Q         05/16/05    Quality Control Review of the Audit of Adventist Development and
                                        Relief Agency Performed by PricewaterhouseCoopers, for the
                                        Fiscal Year Ended September 30, 2002




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                          Appendix A

                                                                                                                                 55
                      Semiannual Report to the Congress

                                                                                                        Amount of
          Report    Date of                                                                                             Type of
                                                           Report Title                                  Findings
          Number    Report                                                                                             Findings
                                                                                                          ($000s)
   1-527-05-006-Q   04/01/05   Quality Control Review of the Audit of the Special Project, “Huallaga
                               Central y Bajo Mayo,” Grant Agreement No. 527-0348, Framework
                               Sub-agreement for the Alternative Development Program (Between
                               the National Commission for Development and Life Without Drugs),
                               Managed by the National Institute for Development, for the Period
                               from January 1, 2002 to June 30, 2003
   1-527-05-007-Q   05/05/05   Quality Control Review of the Audit of Three Projects - (1) Salud
                               Reproductiva en la Comunidad (REPROSALUD) Cooperative
                               Agreement No. 527-A-00-95-00372-04; (2) Coalicion para la
                               Reforma del Congreso (CONSODE) Cooperative Agreement
                               No. 527-A-00-02-00167-00; and (3) MercoMujer Cooperative
                               Agreement No. GEG-A-00-01-00002-00, Managed by the
                               Movimiento Manuela Ramos (MMR) for the Year Ended December
                               31, 2003
   1-522-05-008-Q   05/10/05   Quality Control Review of Audit Reports and Work Papers Related
                               to Agreement No. 522-A-00-98-00116-00 and No. 522-A-00-93-
                               00264-00
   1-522-05-009-Q   05/17/05   Quality Control Review of Audit Report and Work Papers Related
                               to the Financial Statement Audit of the USAID-Funded Municipal
                               Development Program, Managed by the Foundation for Municipal
                               Development, for the Year Ended December 31, 2002 and the
                               Close-out Audit for the 9-Month Period Ending September 30, 2003
   1-524-05-010-Q   07/28/05   Quality Control Review of the Clsoe-out Audit of the Fund
                               Accountability Statement of the Voter Documentation Support
                               Program, Grant Agreement No. 524-0373, Managed by the Consejo
                               Supremo Electoral, for the Period of July 20, 2001 to November 30,
                               2001
   1-519-05-011-Q   08/22/05   Quality Control Review of Audit Report and Work Papers Related
                               to the Financial Statement Audit of the “Earthquake Recovery
                               Program,” Agreement No. 519-0458, Managed by the National
                               Popular Housing Fund, for the Quarter Ended June 30, 2004
   4-674-05-003-Q   04/12/05   Quality Control Review of the Audit of the South African National
                               Roads Agency Limited for the Financial Year Ended March 31, 2004
   4-621-05-004-Q   05/20/05   Quality Control Review of the Audit of the Reproductive and Child
                               Health Initiative, Under USAID Strategic Objective Agreement No.
                               621-001-01, Project Implementation Letters 51, 53, 54, and 58 for
                               the Period December 1, 2001 to June 30, 2003
   4-674-05-005-Q   05/13/05   Quality Control Review of the Audit of the Desmond Tutu
                               Educational Trust Under USAID Grant Agreement No. 674-G-00-
                               92-00038-00 for the Period January 1, 2002 to May 31, 2003
   4-674-05-006-Q   06/27/05   Quality Control Review of BDO Spencer Steward’s Pretoria Ofﬁce
   4-674-05-007-Q   07/12/05   Quality Control Review of the Recipient-Contracted Audit of
                               the Hope Worldwide South Africa Under USAID Cooperative
                               Agreement No. 674-A-00-01-00042-00 for the Period January 1
                               to December 31, 2003 Performed by Henk Prinsloo & Partners
                               (Pretoria, South Africa)




                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC

Appendix A                                                                             April 1, 2005 — September 30, 2005

56
                              Semiannual Report to the Congress

                                                                                                              Amount of
            Report          Date of                                                                                        Type of
                                                                   Report Title                                Findings
            Number          Report                                                                                        Findings
                                                                                                                ($000s)
     4-674-05-008-Q         08/04/05   Quality Control Review of the Recipient-Contracted Audit of the
                                       South African Institute of Race Relations Under USAID Cooperative
                                       Agreement No. 674-A-00-90-00039-00 for the Period April 1, 2002
                                       to March 31, 2003 Performed by Ernst & Young (Johannesburg,
                                       South Africa)
     4-615-05-009-Q         08/19/05   Quality Control Review of the Recipient-Contracted Audit of the
                                       Kenya Wildlife Services Under USAID/Kenya Project No. 615-0247
                                       for the Period July 1, 2000 to June 30, 2001 Performed by Deloitte
                                       & Touche (Nairobi, Kenya)
     4-623-05-010-Q         09/16/05   Quality Control Review of the Recipient-Contracted Audit of the
                                       Inter-Governmental Authority on Development, Horn of Africa
                                       Support Project Under USAID Award No. 625-0006 for the Period
                                       January 1 to December 31, 2003, Performed by Ernst & Young
                                       (Nairobi, Kenya)
     4-623-05-011-Q         09/20/05   Quality Control Review of the Recipient-Contracted Audit of the
                                       Centre for African Family Studies Under USAID/REDSO/ESA
                                       Cooperative Agreement No. 623-0005-A-00-4143-00 for the Year
                                       Ended December 31, 2001, Performed by PricewaterhouseCoopers
                                       (Nairobi, Kenya)
     4-696-05-012-Q         09/23/05   Quality Control Review of the Audit/Evaluation of the Micro Projects
                                       Programme, Funded by the Delegation of the European Union in
                                       Rwanda, for the Period January 1, 2001 to December 31, 2002
                                       Performed by KPS Associates (Kigali, Rwanda)
     5-492-05-001-Q         08/17/05   Quality Control Review of the Audit Report and Audit
                                       Documentation for the Financial Audit Conducted by Punongbayan
                                       & Araullo, City of Makati, Philippines, of the Alliance for Mindanao
                                       Off-Grid Renewable Energy Program, USAID/Philippines
                                       Cooperative Agreement No. 492-A-00-02-00006-00, Managed by
                                       the Winrock International Institute for Agricultural Development
                                       Philippines Branch, for the Period from February 22, 2002 to July
                                       31, 2004
     6-263-05-001-Q         06/16/05   Quality Control Review of Audit Report Covering USAID Resources
                                       Managed by the Horticultural Exporters Improvement Association,
                                       through Grant Agreement Number 263-G-00-99-00010-00, for the
                                       Period from January 1, 2003 through December 31, 2003


                                                        —OTHER—


     4-650-05-001-S         05/16/05   Survey of USAID/Sudan Field Ofﬁce
     5-497-05-001-S         07/20/05   Risk Assessments of Major Activities Under USAID/Indonesia’s
                                       Tsunami Recovery and Reconstruction Program
     5-383-05-002-S         09/02/05   Risk Assessments of Major Activities Under USAID/Sri Lanka’s
                                       Tsunami Recovery and Reconstruction Program
     9-000-05-001-S         07/21/05   Memorandum Regarding the Calculation and Collection of U.S.              435         BU
                                       Treasury Interest on the Development Credit Authority Guarantee
                                       Financing Account




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                        Appendix A

                                                                                                                               57
                     Semiannual Report to the Congress


                               USAID Performance Audit Reports

                                                                                                      Amount of
          Report    Date of                                                                                           Type of
                                                             Report Title                              Findings
          Number    Report                                                                                           Findings
                                                                                                        ($000s)

                                     —ECONOMY AND EFFICIENCY—

   1-521-05-007-P   04/11/05      Audit of USAID/Haiti’s Tropical Storm Reconstruction Program
   1-532-05-008-P   04/12/05      Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation
                                  Program
   1-514-05-009-P   07/05/05      Audit of USAID/Colombia’s Internally Displaced Persons Program
   1-521-05-010-P   07/29/05      Audit of USAID/Haiti’s Implementation of the President’s
                                  Emergency Plan for HIV/AIDS Relief
   1-519-05-011-P   08/17/05      Audit of USAID/El Salvador’s Cashiering Operations
   4-674-05-004-P   04/21/05      Audit of USAID/South Africa’s Global Development Alliance
                                  Program
   4-696-05-005-P   06/10/05      Audit of USAID/Rwanda’s Implementation of the President’s
                                  Emergency Plan for AIDS Relief
   4-617-05-006-P   08/01/05      Audit of USAID/Uganda’s Implementation of the President’s
                                  Emergency Plan for AIDS Relief
   5-306-05-005-P   04/14/05      Audit of USAID/Afghanistan’s Primary Education Program
   5-386-05-006-P   05/11/05      Audit of USAID/India’s Global Development Alliances
   6-278-05-003-P   06/07/05      Audit of USAID/Jordan’s Water Resources Management Activities
   6-294-05-004-P   07/06/05      Audit of USAID/West Bank Gaza’s Oversight of Resources
                                  Managed by American Near East Refugee Aid Under Cooperative
                                  Agreement 294-A-00-02-00229-00
   6-263-05-005-P   07/17/05      Audit of USAID/Egypt’s Severance Payments to Foreign Service
                                  National Employees
   7-611-05-005-P   07/27/05      Audit of USAID/Zambia’s Implementation of the President’s
                                  Emergency Plan for HIV/AIDS Relief
   7-608-05-006-P   07/28/05      Audit of USAID/Morocco’s Results Achieved Under the Country
                                  Strategic Plan with Activities Ending in FY 2004
   7-685-05-007-P   08/30/05      Audit of USAID/Senegal’s Monitoring of Selected Agriculture and
                                  Natural Resources Management Activities
   9-000-05-006-P   07/21/05      Audit of USAID’s Global Development Alliances
   9-615-05-007-P   07/21/05      Audit of USAID/Kenya’s Implementation of the President’s
                                  Emergency Plan for AIDS Relief
   9-000-05-009-P   09/30/05      Audit of USAID’s Implementation of the President’s Emergency
                                  Plan for AIDS Relief
   A-000-05-007-P   06/28/05      Audit of USAID’s Compliance with Provisions on Security
                                  Classiﬁcation for Information System Managers at Critical Threat
                                  Missions
   A-000-05-008-P   09/26/05      Audit of USAID’s Compliance with Provisions of the Federal
                                  Information Security Management Act of 2002 for Fiscal Year 2005
   A-000-05-011-P   09/30/05      Audit of USAID’s Access Controls Over Financial Management
                                  Systems and General Support Systems for Fiscal Year 2005

                                                                                                     BU--Better Use of Funds
                                                                                                     QC--Questioned Costs
                                                                                                     UN--Unsupported Costs
                                                                                                     Note: UN is part of QC

Appendix A                                                                              April 1, 2005 — September 30, 2005

58
                                 Semiannual Report to the Congress

                                                                                                                 Amount of
            Report              Date of                                                                                       Type of
                                                                      Report Title                                Findings
            Number              Report                                                                                       Findings
                                                                                                                   ($000s)
     E-267-05-003-P         06/29/05      Audit of USAID/Iraq’s Electrical Power Sector Activities
     E-267-05-004-P         06/30/05      Audit of USAID/Iraq’s Water and Sanitation Rehabilitation Activities
     E-267-05-005-P         09/27/05      Audit of USAID/Iraq’s Cash Control Procedures




  BU--Better Use of Funds
  QC--Questioned Costs
  UN--Unsupported Costs
  Note: UN is part of QC

April 1, 2005 — September 30, 2005                                                                                           Appendix A

                                                                                                                                 59
                          Semiannual Report to the Congress

                       African Development Foundation Audit Reports


                                                                                                       Amount of
          Report        Date of                                                                                         Type of
                                                            Report Title                                Findings
          Number        Report                                                                                         Findings
                                                                                                         ($000s)


                                     —PROGRAMS AND OPERATIONS—


   A-ADF-05-009-P   09/27/05      Audit of the African Development Foundation’s Compliance with the
                                  Provisions of the Federal Information Security Management Act of
                                  2002 for Fiscal Year 2005


                                       —ECONOMY AND EFFICIENCY


   9-ADF-05-008-P   08/17/05      Audit of African Development Foundation’s Monitoring, Reporting          236            BU
                                  and Evaluation System
                                                                                                           146            QC




                           Inter-American Foundation Audit Reports



                                                                                                       Amount of
          Report        Date of                                                                                         Type of
                                                             Report Title                               Findings
          Number        Report                                                                                         Findings
                                                                                                         ($000s)


                                     —PROGRAMS AND OPERATIONS—


   A-IAF-05-010-P   09/29/05      Audit of Inter-American Foundation’s Compliance with Provisions of
                                  the Federal Information Security Management Act of 2002 for Fiscal
                                  Year 2005




                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC

Appendix A                                                                             April 1, 2005 — September 30, 2005

60
                             Semiannual Report to the Congress


            AUDIT REPORTS OVER SIX MONTHS OLD

                 WITH NO MANAGEMENT DECISION*

                                     As of September 30, 2005

                                                                                     Desired
      Report                              Issue
                           Auditee                 Current Recommendation Status    Decision
      Number                              Date
                                                                                   Target Date




                                      NOTHING TO REPORT




  *Applies to USAID, ADF, and IAF.




April 1, 2005 — September 30, 2005                                                       Appendix B

                                                                                                                                   61
                                 Semiannual Report to the Congress

             SIGNIFICANT AUDIT RECOMMENDATIONS

              DESCRIBED IN PREVIOUS SEMIANNUAL

                REPORTS WITHOUT FINAL ACTION

                                                 As of September 30, 2005

                                                              USAID

                                                                                                                        Final Action
       Report                                                                                    Rec.   Management
                                          Subject of Report                         Issue Date                             Target
       Number                                                                                    No.    Decision Date
                                                                                                                            Date
    9-000-02-005-P   USAID’s Staff Training and Development Activities               07/11/02     1       07/11/02         09/06
                                                                                                  2       07/11/02         09/06
                                                                                                  3       07/11/02         09/06
    0-000-03-001-C   Report on USAID’s Consolidated Financial Statements             01/24/03    2.2      01/24/03         12/05
                     Internal Controls and Compliance for Fiscal Year 2002
    A-000-04-003-P   Capping Report: USAID’s Compliance with Federal                 05/19/04     2       08/25/04         10/05
                     Regulations in Awarding the Iraq Phase I Contracts
    1-598-05-001-P   Regionalization Efforts in Latin America and the Caribbean      11/09/04     1       11/09/04         12/05
                                                                                                  2       11/09/04         12/05
                                                                                                  3       11/09/04         12/05
                                                                                                  4       11/09/04         12/05
                                                                                                  5       11/09/04         12/05
                                                                                                  6       11/09/04         12/05
                                                                                                  7       11/09/04         12/05
    1-598-05-002-P   USAID’s Bureau for Management, Ofﬁce of Acquisition             12/03/04     1       12/03/04         12/05
                     and Assistance’s Administration of Audits Required Under
                     Awards to Foreign and U.S. Recipients
                                                                                                  2       12/03/04         12/05
                                                                                                  3       12/03/04         12/05
                                                                                                  4       12/03/04         12/05
                                                                                                  5       12/03/04         12/05
                                                                                                  6       12/03/04         12/05
    9-000-05-001-P   Field Support Mechanisms in the Global Health Bureau            12/07/04     1       12/07/04         12/05
                                                                                                  2       12/07/04         12/05
                                                                                                  3       12/07/04         12/05
    9-611-05-002-P   USAID/Zambia’s Global Development Alliances                     12/28/04     1       12/28/04         11/05
                                                                                                  2       12/28/04         11/05
                                                                                                  3       03/21/05         02/06
    A-267-05-005-P   USAID’s Compliance with Federal Regulations in                  01/06/05     1       01/06/05         01/06
                     Awarding the Contract for Security Services in Iraq to Kroll
                     Government Services International, Inc.
                                                                                                  2       01/06/05         01/06
                                                                                                  4       01/06/05         11/05
    1-524-05-004-P   Management Activities of USAID/Nicaragua’s Cognizant            01/26/05     1       01/26/05         10/05
                     Technical Ofﬁcers
                                                                                                  2       01/26/05         10/05


Appendix C                                                                                       April 1, 2005 — September 30, 2005

62
                                 Semiannual Report to the Congress

                                                                                                                       Final Action
        Report                                                                                  Rec.   Management
                                          Subject of Report                        Issue Date                             Target
        Number                                                                                  No.    Decision Date
                                                                                                                           Date
                                                                                                 3       01/26/05         10/05
                                                                                                 4       01/26/05         10/05
     7-685-05-003-P   USAID/Senegal’s Contracting Operations                        01/31/05     1       01/31/05         10/05
                                                                                                 2       01/31/05         11/05
                                                                                                 3       01/31/05         11/05
     1-527-05-005-P   USAID/Peru’s Global Development Alliances                     02/14/05     1       02/14/05         02/06
                                                                                                 2       02/14/05         02/06
     6-608-05-001-P   USAID/Morocco’s Management of Activities Under the            02/21/05     1       02/21/05         12/05
                      Middle East Partnership Initiative
     A-000-05-006-P   USAID’s Information Technology Infrastructure                 02/22/05     1       02/22/05         01/06
                                                                                                 3       02/22/05         10/05
                                                                                                 4       02/22/05         10/05
                                                                                                 7       02/22/05         11/05
                                                                                                 8       02/22/05         11/05
                                                                                                 9       02/22/05         11/05
     5-306-05-003-P   USAID/Afghanistan’s School and Clinic Reconstruction          03/14/05     1       03/14/05         10/05
                      Program
                                                                                                 2       03/14/05         10/05
                                                                                                 3       03/14/05         10/05
     4-621-05-003-P   Report on Follow-up of Recommendation Nos. 1 through          03/15/05     6       03/15/05         10/05
                      10 from the Audit of USAID/Tanzania’s Participant Training
                      Activities
                                                                                                 7       04/26/05         10/05
                                                                                                 8       03/15/05         10/05
     9-000-05-004-P   USAID’s Implementation of the Ofﬁce of Management and         03/25/05     1       03/25/05         11/05
                      Budget’s Program Assessment and Rating Tool
                                                                                                 2       03/25/05         11/05
                                                                                                 3       03/25/05         11/05
     5-388-05-004-P   USAID/Bangladesh’s Nongovernmental Organization               03/31/05     4       03/31/05         12/05
                      Service Delivery Program
     B-118-05-002-P   USAID/Russia’s Democracy Program                              03/31/05     1       03/31/05         12/05
                                                                                                 2       03/31/05         12/05
                                                                                                 3       03/31/05         12/05
                                                                                                 4       03/31/05         12/05
                                                                                                 5       03/31/05         12/05
                                                                                                 6       03/31/05         12/05




April 1, 2005 — September 30, 2005                                                                                       Appendix C

                                                                                                                                63
                                Semiannual Report to the Congress


                           African Development Foundation
                                                                                                                     Final Action
       Report                                                                                 Rec.   Management
                                         Subject of Report                       Issue Date                             Target
       Number                                                                                 No.    Decision Date
                                                                                                                         Date
    9-ADF-03-005-P   Audit of Awarding and Monitoring of Grants by the African    02/28/03     1       02/28/03         07/06
                     Development Foundation
                                                                                               2       02/28/03         07/06
                                                                                               3       02/28/03         07/06
                                                                                               5       02/28/03         07/06




                                  Inter-American Foundation


                                                  NOTHING TO REPORT




Appendix C                                                                                    April 1, 2005 — September 30, 2005

64
                                     Semiannual Report to the Congress

                               Reports Issued With Questioned
                                  And Unsupported Costs
                                           USAID
                              April 1, 2005 through September 30, 2005

                                                                               NUMBER
                                                                                                   QUESTIONED              UNSUPPORTED
                               REPORTS                                         OF AUDIT
                                                                                                     COSTS                    COSTS1
                                                                               REPORTS

     A. For which no management decision had been made                              62              $30,682,9552              $21,662,2472
        as of April 1, 2005

     B. Add: Reports issued April 1, 2005 through                                   74              $30,573,2063              $20,784,9473
        September 30, 2005

        Subtotal                                                                   136              $61,256,161               $42,447,194

     C. Less: Reports with a management decision made                               974             $37,542,3215              $23,443,4525
        April 1, 2005 through September 30, 2005

        i.   Value of Recommendations Disallowed by                                                 $11,153,961                $5,743,572
             Agency Ofﬁcials

        ii. Value of Recommendations Allowed by Agency                                              $26,388,360               $17,699,880
            Ofﬁcials

     D. For which no management decision had been made                              39              $23,713,8406              $19,003,7426
        as of September 30, 2005

 1
   Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General Act
 Amendments of 1988 (P.L. 100-504).
 2
  Amounts include $6,907,613 in Questioned Costs and $3,945,302 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 3
   Amounts include $17,230,848 in Questioned Costs and $13,334,964 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 4
   Unlike the monetary ﬁgures of this row, this ﬁgure is not being subtracted from the subtotal. Some audit reports counted here are again counted
 in the ﬁgure below it.
 5
  Amounts include $8,207,539 in Questioned Costs and $4,368,398 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.
 6
   Amounts include $15,874,791 in Questioned Costs and $12,995,604 in Unsupported Costs for audits performed for the OIG by other federal audit
 agencies.




April 1, 2005 — September 30, 2005                                                                                                       Appendix D

                                                                                                                                             65
                                    Semiannual Report to the Congress

                              Reports Issued With Questioned

                                   And Unsupported Costs
                              African Development Foundation
                              April 1, 2005 through September 30, 2005

                                                                        NUMBER
                                                                                               QUESTIONED             UNSUPPORTED
                           REPORTS                                      OF AUDIT
                                                                                                 COSTS                   COSTS1
                                                                        REPORTS

   A. For which no management decision had                                    0                       $0                        $0
      been made as of April 1, 2005

   B. Add: Reports issued April 1, 2005 through                               1                   $146,452                    $450
      September 30, 2005

        Subtotal                                                              1                   $146,452                    $450

   C. Less: Reports with a management decision                                1                   $146,452                    $450
      made April 1, 2005 through September 30,
      2005

        i.   Value of Recommendations Disallowed                                                  $146,452                    $450
             by Agency Ofﬁcials

        ii. Value of Recommendations Allowed by                                                       $0                        $0
            Agency Ofﬁcials

   D. For which no management decision had                                    0                       $0                        $0
      been made as of September 30, 2005



 1
   Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General Act
 Amendments of 1988 (P.L. 100-504).




Appendix D                                                                                               April 1, 2005 — September 30, 2005

66
                                    Semiannual Report to the Congress

                       Reports Issued With Recommendations
                          That Funds Be Put To Better Use
                                                       USAID
                              April 1, 2005 through September 30, 2005

                                                                       NUMBER
                                                                                  DOLLAR
                                     REPORTS                           OF AUDIT
                                                                                  VALUES
                                                                       REPORTS

     A. For which no management decision had been made as of
        April 1, 2005
                                                                          1       $372,338

     B. Add: Reports issued April 1, 2005 through September 30, 2005      2       $698,775

          Subtotal                                                        3       $1,071,113

     C. Less: Reports with a management decision made April 1, 2005
        through September 30, 2005
                                                                          21      $807,338

          i.   Value of Recommendations Agreed to by Agency Ofﬁcials              $807,338

          ii. Value of Recommendations Not Agreed by Agency Ofﬁcials                 $0

     D. For which no management decision had been made as of
        September 30, 2005
                                                                          1       $263,775



 1
     This ﬁgure is not subtracted from the subtotal.




April 1, 2005 — September 30, 2005                                                        Appendix E

                                                                                                       67
                              Semiannual Report to the Congress

                   Reports Issued With Recommendations

                      That Funds Be Put To Better Use

                         African Development Foundation

                         April 1, 2005 through September 30, 2005

                                                                     NUMBER
                                                                                        DOLLAR
                               REPORTS                               OF AUDIT
                                                                                        VALUES
                                                                     REPORTS

   A. For which no management decision had been made as of
      April 1, 2005
                                                                        0                   $0

   B. Add: Reports issued April 1, 2005 through September 30, 2005      1               $236,000

       Subtotal                                                         1               $236,000

   C. Less: Reports with a management decision made April 1, 2005
      through September 30, 2005
                                                                        1               $236,000

       i.    Value of Recommendations Agreed to by ADF Ofﬁcials                         $236,000

       ii. Value of Recommendations Not Agreed by ADF Ofﬁcials                              $0

   D. For which no management decision had been made as of
      September 30, 2005
                                                                        0                   $0




Appendix E                                                               April 1, 2005 — September 30, 2005

68
                              Semiannual Report to the Congress

                                 Reporting Requirements

                                               USAID

  Summary of Instances in Which                        Remediation Plan
  Information or Assistance Was                        The Inspector General Act requires us to
  Refused                                              provide an update on issues outstanding under a
                                                       remediation plan required by the Federal Financial
  The Inspector General Act of 1978 (Public Law 95-
                                                       Management Improvement Act of 1996 (FFMIA).
  452), as amended requires the identiﬁcation of any
                                                       FFMIA requires agencies to substantially comply
  reports made to the head of the agency describing
                                                       with (1) Federal ﬁnancial management system
  where information or assistance was refused
                                                       requirements, (2) Federal Accounting Standards,
  or not provided. During this reporting period,
                                                       and (3) the U.S. Standard General Ledger at
  there were no reports to the Administrator of
                                                       the transaction level. According to Ofﬁce of
  USAID describing instances where information
                                                       Management and Budget Circular No. A-11, an
  or assistance was unreasonably refused or not
                                                       agency that is not substantially compliant with
  provided.
                                                       FFMIA must prepare a remediation plan. The
                                                       purpose of the remediation plan is to identify
  Decisions and Reasons for                            ﬁscal year activities planned and underway
  Signiﬁcant Revised Management                        that will allow an agency to achieve substantial
  Decisions                                            compliance with FFMIA.

  The Inspector General Act requires that each         The Ofﬁce of the Inspector General’s ﬁscal year
  Inspector General’s Semiannual Report to the U.S.    2005 audit of USAID’s compliance with FFMIA
  Congress include a description and explanation       concluded that the Agency had made signiﬁcant
  of signiﬁcant revisions of management decisions.     strides to overcome its longstanding FFMIA
  During this reporting period, there were no          noncompliance conditions and modernize its
  signiﬁcant revisions of management decisions.        ﬁnancial management systems. However, USAID
                                                       still needs to:
  Signiﬁcant Management                                 •	 Implement a cost allocation model to allocate
  Decisions with Which the                                 the costs of Agency programs to the operating
  Inspector General Disagrees                              unit and strategic objective level.

  The Inspector General Act requires that each          •	 Implement a worldwide, integrated ﬁnancial
  Inspector General’s Semiannual Report to the             management system, allowing the Agency to
  U.S. Congress include information concerning any         use the U.S. Standard General Ledger at the
  signiﬁcant management decisions with which the           transaction level.
  OIG is in disagreement. During this reporting
  period, there were no management decisions with      USAID ofﬁcials expect to be substantially compliant
  which the OIG disagreed.                             with FFMIA once the Phoenix Financial System is
                                                       fully deployed to the Agency’s overseas missions in
                                                       April 2006.




April 1, 2005 — September 30, 2005 	                                                              Appendix F

                                                                                                                    69
                                Semiannual Report to the Congress


                           OIG STATISTICAL SUMMARY


                                                      USAID
                                      As of September 30, 2005
                                          INVESTIGATIVE ACTIONS

     WORK LOAD                                                       CIVIL
     CASES PENDING (03/31/05)                122                     CIVIL REFERRALS                           1

     CASES OPENED                             40                     COMPLAINTS                                1

     CASES CLOSED                             61                     JUDGEMENTS/RECOVERIES                     0

     CASES PENDING (09/30/05)                101                     SETTLEMENTS                               3

     HOTLINE CONTACTS                        2,866

     CRIMINAL                                                        ADMINISTRATIVE
     PROSECUTIVE REFERRALS                    5                      REPRIMANDS/DEMOTIONS                      1

     PROSECUTIVE DECLINATIONS                 8                      PERSONNEL SUSPENSIONS                     23

     INDICTMENTS                              1                      RESIGNATIONS/TERMINATIONS                 5

     CONVICTIONS                              0                      OTHER ADMINISTRATIVE ACTIONS              5

     FINES                                    0                      RECOVERIES                                6

     RESTITUTIONS                             0                      SUSPENSIONS/DEBARMENTS                    0

                                                                     SAVINGS                                   3

                                                                     SYSTEMIC CHANGES                          2




                                       INVESTIGATIVE RECOVERIES


                                JUDICIAL RECOVERIES                            $38,160,000

                                ADMINISTRATIVE RECOVERIES                       $1,079,825

                                SAVINGS                                         $4,540,156

                                TOTAL INVESTIGATIVE SAVINGS/ RECOVERIES        $43,779,981




Appendix G                                                                            April 1, 2005 — September 30, 2005

U.S. Agency for International Development 

       Ofﬁce of Inspector General 

     1300 Pennsylvania Avenue, NW

              Room 6.06D 

         Washington, DC 20523





         The Semiannual Report to the Congress

              is available on the Internet at 

    www.usaid.gov/oig/public/semiann/semiannual1.htm

